<html>
<title> - OVERSIGHT HEARING ON STATE PERSPECTIVES ON BLM'S DRAFT PLANNING 2.0 RULE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










          STATE PERSPECTIVES ON BLM'S DRAFT PLANNING 2.0 RULE

=======================================================================

                           OVERSIGHT HEARING

                               before the

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         Thursday, July 7, 2016

                               __________

                           Serial No. 114-48

                               __________

       Printed for the use of the Committee on Natural Resources


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-697 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001













                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                  Sarah Lim, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                      LOUIE GOHMERT, TX, Chairman
             DEBBIE DINGELL, MI, Ranking Democratic Member

Doug Lamborn, CO                     Jared Huffman, CA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Bruce Westerman, AR                  Jared Polis, CO
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Vacancy
Alexander X. Mooney, WV              Raul M. Grijalva, AZ, ex officio
Darin LaHood, IL
Rob Bishop, UT, ex officio
                                 ------ 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 7, 2016...........................     1

Statement of Members:
    Dingell, Hon. Debbie, a Representative in Congress from the 
      State of Michigan..........................................     2
        Prepared statement of....................................     3
    Gohmert, Hon. Louie, a Representative in Congress from the 
      State of Texas.............................................     1

Statement of Witnesses:
    Clarke, Kathleen, Director, Utah Public Lands Policy 
      Coordinating Office, Salt Lake City, Utah..................    34
        Prepared statement of....................................    36
        Questions submitted for the record.......................    37
    Fontaine, Jeff, Executive Director, Nevada Association of 
      Counties, Carson City, Nevada..............................    10
        Prepared statement of....................................    12
        Questions submitted for the record.......................    16
    Lyons, Jim, Deputy Assistant Secretary, Land and Minerals 
      Management, U.S. Department of the Interior, Washington, DC    22
        Prepared statement of....................................    24
        Questions submitted for the record.......................    27
    McAfee, Chuck, Landowner and Community Volunteer, Lewis, 
      Colorado...................................................    16
        Prepared statement of....................................    18
        Questions submitted for the record.......................    19
    Ogsbury, Jim, Executive Director, Western Governors' 
      Association, Denver, Colorado..............................     4
        Prepared statement of....................................     5
        Questions submitted for the record.......................     9

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    61
    Otter, Hon. C.L. ``Butch'', Governor of Idaho, May 25, 2016 
      Letter to Neil Kornze, Director, Bureau of Land Management.    47
    Otter, Hon. C.L. ``Butch'', Governor of Idaho, July 1, 2016 
      Letter to the Federal Delegation of Idaho..................    51
    Sportsmen for Responsible Energy Development, July 6, 2016 
      Letter to Neil Kornze, Director, Bureau of Land Management.    40
 
  OVERSIGHT HEARING ON STATE PERSPECTIVES ON BLM'S DRAFT PLANNING 2.0 
                                  RULE

                              ----------                              


                         Thursday, July 7, 2016

                     U.S. House of Representatives

              Subcommittee on Oversight and Investigations

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 1324, Longworth House Office Building, Hon. Louie Gohmert 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gohmert, Labrador, Westerman, 
Bishop; and Dingell.
    Also present: Representatives Lummis and Gosar.
    Mr. Gohmert. The Subcommittee on Oversight and 
Investigations will come to order. The subcommittee is meeting 
today to hear testimony on states' perspectives on the Bureau 
of Land Management's Draft Planning 2.0 Rule.
    Under Committee Rule 4(f), any oral opening statements at a 
hearing are limited to the Chair and the Ranking Minority 
Member. Therefore, I ask unanimous consent that all other 
Members' opening statements be made a part of the hearing 
record if they are submitted to the Subcommittee Clerk by 5:00 
p.m. today. Hearing no objection, so ordered.
    I also ask unanimous consent that the gentlelady from 
Wyoming, Mrs. Lummis--when she comes from a meeting we were 
having--and the gentleman from Arizona, Dr. Gosar, be allowed 
to sit in with the subcommittee, since they are part of the 
Full Committee. Hearing no objections, so ordered.
    I will politely ask that everyone in the hearing please 
silence their cell phones. When I was a judge, we would order 
them confiscated. I don't do that now, but this will allow for 
minimum distractions.
    I will now recognize myself for 5 minutes for an opening 
statement.

 STATEMENT OF HON. LOUIE GOHMERT, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Gohmert. The Subcommittee on Oversight and 
Investigations is meeting today to hear testimony on BLM's 
draft resource management planning rule. This draft rule is 
part of BLM's Planning 2.0 initiative, and it completely upends 
the current process by which the agency prepares and amends 
resource management plans that govern public lands.
    Getting the planning process right is crucial because the 
effects of resource management plans on communities throughout 
the West cannot be overstated. In some counties, where the 
Federal Government owns a majority of the land, the decisions 
that BLM makes have an outsized impact. Families and local 
economies can and do suffer as a direct result of BLM's 
unaccountable, Washington, DC bureaucracy. That is why Congress 
specifically prioritized the input of those who are most 
affected by BLM's resource management plans.
    The Federal Land Policy Management Act (FLPMA) made clear 
that BLM must coordinate with local governments on management 
plans. BLM's Planning 2.0 effort and this draft rule appears to 
ignore the law and undermines the communities that neighbor BLM 
land. From refusing to further extend the comment period, to 
cutting local communities out of the resource management 
planning process, BLM has perfectly illustrated why so many 
people feel that the Federal Government is not a good neighbor.
    When BLM heard from numerous local governments, interested 
organizations, and Congress that significantly more time was 
needed to comment on the draft rule, BLM extended the comment 
period for only 30 days, effectively saying, ``No, thanks. We 
don't need to hear from all of you.'' That probably should not 
have been a surprise, since, in many ways, the draft rule seems 
to be designed to increase Washington's influence while 
minimizing BLM's responsibility to work with the states, local 
government, and affected people.
    We are here today to remind BLM of its obligation to 
cooperate with its neighbors, to provide an opportunity for 
those who are most invested in an effective and efficient 
planning process to share their expertise. They are not in 
existence to repeatedly infuriate local landowners until they 
are provoked to violence resulting in the death of a landowner, 
as we have seen.
    Many people have acknowledged that the planning process 
could be improved, but BLM's draft rule, as it is currently 
written, is not a workable solution. At a minimum, BLM needs to 
reopen the comment period to allow for full and substantive 
input on this complex rule. Ideally, BLM should go back to the 
drawing board and partner closely with the state and local 
governments to make sure the resource management planning 
process works for everyone, not just agency officials.
    In closing, I want to say thank you to our witnesses. Most 
of them have traveled a great distance. And obviously, you 
don't come for the money, because you don't get paid. This is 
all because you care about our country and our freedoms, so we 
much appreciate your willingness to come share your thoughts 
and your observations with us, and we look forward to your 
testimony.
    The Chair now recognizes Mrs. Dingell for 5 minutes for an 
opening statement.

STATEMENT OF HON. DEBBIE DINGELL, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mrs. Dingell. Mr. Chairman, thank you for your courtesy in 
accommodating me this morning. In the interest of time, I am 
going to ask unanimous consent to submit my opening statement 
for the record and yield back the balance of my time. I 
apologize to the witnesses that I am going to have to leave, to 
be blunt, to take my husband to the doctor.
    But I will be here for the first round of questions and, as 
the Chairman knows, will pay attention to all the information 
we learn today.
    [The prepared statement of Mrs. Dingell follows:]
    Prepared Statement of the Hon. Debbie Dingell, Ranking Member, 
              Subcommittee on Oversight and Investigations
    Thank you, Mr. Chairman. And thank you to all of our witnesses who 
have taken the time to be here with us today.
    A little over a month ago, I was sitting in this very same seat, in 
this very same room, talking about this very same topic. In fact, this 
morning marks the third congressional hearing on the Bureau of Land 
Management's resource management planning process.
    If I didn't know better, I would think this re-run is a sign that 
this committee has run out of issues that warrant oversight and 
investigation. But I do know better and that couldn't be further from 
the truth.
    My colleagues and I have made requests for committee hearing topics 
that demand our attention, but we continue to be ignored. Why aren't we 
having a hearing to learn more about home-grown terrorism like we saw 
at Malheur National Wildlife Refuge where our public lands were held 
hostage at gunpoint and the public service employees who work on those 
lands were threatened? Why can't we examine the alarming number of 
species that are going extinct each year and whether our Federal 
agencies have the resources they need to protect the biodiversity that 
we all rely on every day? And when will we do our due diligence in 
investigating the full spectrum of devastating consequences that 
climate change is having on our lands, ecosystems, and our own health, 
safety, and economy?
    That said, BLM's resource management planning process is an 
important issue. As I mentioned in the first hearing on the topic, BLM 
is responsible for more public lands than any other Federal agency. And 
it's clear that the agency's current process for developing resource 
management plans is clunky, out of date, and inaccessible to the 
public.
    Fortunately, BLM's proposed rule for revising this process, 
otherwise known as Planning 2.0, is a clear improvement. Planning 2.0 
proposes several additional opportunities for the public to be involved 
in planning, making the process more transparent and relevant to all 
residents. Today we will hear some people claim that their organized 
voice should be elevated above the direct and unfiltered voice of 
Americans. I think that giving people more input into planning makes 
more sense than hoping that interest groups or other elected officials 
will do the talking for them.
    The rule also proposes developing plans according to the natural 
boundaries of landscapes and ecosystems, rather than political or 
jurisdictional borders. This ``landscape-level approach'' not only 
makes sense, but has been consistently supported by leaders and experts 
in the field. In fact, there are ways in which BLM could strengthen its 
landscape scale approach in the new rule. For example, the rule should 
outline how landscape level plans will be monitored and evaluated to 
determine whether plan revisions are needed. Doing so is key to 
effective, adaptive management of our vast Federal lands.
    So while there is no doubt that Planning 2.0 is important and 
deserving of our attention, it seems to me that having three hearings 
about it is a bit excessive. I will say that I am pleased to see that a 
representative from the Department of the Interior was actually invited 
to answer our questions about their initiative this time. My thanks to 
the Chairman for taking my suggestion to do so. I'm hopeful that this 
hearing--which I call Planning 2.0, version 3.0--will be a more 
productive use of everyone's time.
    I also hope that the Chairman will consider my other suggestions 
for hearings in the future as well. Thank you and I yield back my time.

                                 ______
                                 

    Mr. Gohmert. Coming from one of the nicest people I know, 
certainly that is so ordered.
    Now I introduce our witnesses. Mr. Jim Ogsbury is the 
Executive Director for the Western Governors' Association, 
located in Denver, Colorado. Mr. Jeff Fontaine is the Executive 
Director of the Nevada Association of Counties, located in 
Carson City, Nevada. Mr. Chuck McAfee is a landowner and 
community volunteer from Lewis, Colorado. Mr. Jim Lyons is the 
Deputy Assistant Secretary of Land and Minerals Management at 
the U.S. Department of the Interior, located here in 
Washington, DC. Ms. Kathleen Clarke is the Director of the Utah 
Public Lands Policy Coordinating Office, located in Salt Lake 
City, Utah.
    Under Committee Rules, oral statements must be limited to 5 
minutes, but your entire written testimony will be part of the 
record. When you see the light turn yellow, you know you have 1 
minute left. When it turns red, your time has expired, and 
hopefully you will cease without having to be stopped.
    The Chair now recognizes Mr. Ogsbury for your testimony.

     STATEMENT OF JIM OGSBURY, EXECUTIVE DIRECTOR, WESTERN 
            GOVERNORS' ASSOCIATION, DENVER, COLORADO

    Mr. Ogsbury. Thank you, Chairman Gohmert, Ranking Member 
Dingell, and Chairman Bishop. My name is Jim Ogsbury. I serve 
as the Executive Director of the Western Governors' 
Association, an independent, bipartisan association 
representing 19 western governors and 3 U.S. flag islands.
    When it come to the development and administration of 
Federal public policy, Western Governors are duly concerned and 
often frustrated when they are regarded or treated as common 
stakeholders. Governors, the chief executive officers of their 
states, are much more than that. States are sovereigns. 
Governors have constitutional responsibilities, delegated 
authorities, and on-the-ground knowledge about their states' 
economies, cultures, and environments. Their expertise and 
perspective should be brought to bear in the design and 
execution of Federal programs.
    The governors are particularly anxious to operate as 
authentic partners with Federal agencies in the execution of 
programs that have demonstrable impacts on state authority. 
States, for example, possess primary police powers to manage 
most fish and wildlife within their boundaries. Likewise, 
states have primary authority over the management of water 
resources within their borders, and they possess plenary 
authority over groundwater.
    Because the management of Federal lands implicates these 
authorities, and because the Bureau of Land Management owns 
such vast amounts of land in the West, the governors are deeply 
invested in the agency's processes for the development of 
resource management plans. Moreover, the Federal Land Policy 
and Management Act, FLPMA, recognizes this investment and 
mandates a substantial role for governors in the BLM planning 
process.
    Unfortunately, the proposed Planning 2.0 rule fails to 
honor the role of governors in this process, and instead 
diminishes it in significant respects. With respect to states, 
FLPMA says in relevant part that the Secretary of the Interior 
shall, ``Coordinate the land use, inventory planning, and 
management activities of or for such lands with the land use 
planning and management programs of states. The Secretary shall 
provide for meaningful public involvement of state officials in 
the development of land use programs, land use regulations, and 
land use decisions for public lands. Land use plans of the 
Secretary under this section shall be consistent with state 
plans to the maximum extent he finds consistent with Federal 
law.''
    Planning 2.0 changes the existing implementing regulations 
in ways that diminish gubernatorial authority and influence. 
Whereas current regulations provide that BLM shall strive for 
consistency between resource management plans and resource-
related policies, programs, plans, and processes of states, the 
proposed regulation would only consider consistency between 
RMPs and officially adopted land use plans, substantially 
narrowing the influence of governors.
    Furthermore, the proposal eliminates the existing 
regulatory directive that BLM accept a governor's 
recommendation submitted as part of his or her consistency 
review if they provide for a reasonable balance between the 
Nation's interest and the state's interest. Under 2.0, the 
Director is directed to simply consider governors' views. By 
eliminating the current provision and failing to provide 
criteria or standards for the review of gubernatorial input, it 
appears that BLM is investing itself with great, perhaps 
unfettered, discretion to disregard a governor's 
recommendations.
    Western Governors are concerned about several provisions 
that shorten timelines for public comment and obviate the need 
to publish notices in the Federal Register. The agency has 
suggested the comment periods are appropriately reduced because 
the proposed rule includes new opportunities for the public to 
participate early on in the planning process, such as during a 
new planning assessment phase.
    These additional opportunities, however much they may 
operate to elevate the role of the public and non-governmental 
organizations in resource planning, do nothing to promote 
coordination between the states and the agency; rather, 
governors are treated like any other stakeholder.
    Planning 2.0 includes new provisions calling for the use of 
high-quality information. It is disappointing that the proposal 
fails to acknowledge the value of state science, data, and 
analysis, despite the congressional directive for the past 3 
years that Federal land management agencies use state 
information, at least with respect to wildlife data, as a 
principal basis for land management decisions.
    There was little disagreement that the resource management 
planning process of BLM could be greatly improved. Accordingly, 
Western Governors are prepared to work with BLM as authentic 
and invested partners in the development and execution of a 
planning process that redounds to the benefit of individual 
states, the American West, and our great Nation. Thank you.
    [The prepared statement of Mr. Ogsbury follows:]
  Prepared Statement of James D. Ogsbury, Executive Director, Western 
                         Governors' Association
    Good afternoon, Mr. Chairman, Ranking Member Dingell, and members 
of the subcommittee. My name is James D. Ogsbury. I serve as Executive 
Director of the Western Governors' Association. WGA is an independent, 
non-partisan organization representing the governors of 19 western 
states and 3 U.S.-flag islands. I am honored to be here to share 
perspectives of Western Governors regarding the U.S. Bureau of Land 
Management's (BLM) recently released proposal, Resource Management 
Planning--or, Planning 2.0.
    In Planning 2.0, BLM proposes a number of changes in how it 
develops and implements resource management plans (RMP). The stated 
purposes of these changes are to clarify existing language, address 
landscape-scale management issues, and more effectively involve 
governmental and stakeholder partners.
    Upon review of the proposal, Western Governors have concluded that 
what the agency has proposed will have quite opposite effects from what 
it intended: confusion rather than clarity, less transparency rather 
than more. This proposal, if instituted, will significantly reduce the 
opportunity for governors, state regulators, local governments and the 
public to engage in what needs to be a collaborative land management 
planning process for huge swaths of the American West.
                           state consultation
    Western Governors have very clear expectations regarding how 
Federal agencies should interact with them when developing regulatory 
programs impacting states. To quote WGA Policy Resolution 2014-09, 
Respecting State Authority and Expertise, ``Western Governors support 
early, meaningful and substantial state involvement in the development, 
prioritization and implementation of Federal environmental statutes, 
policies, rules, programs, reviews, budget proposals, budget processes 
and strategic planning.'' The rationale behind this position is a 
logical one: states have statutorily- and constitutionally-recognized 
authority to manage lands and resources within state borders.
    Governors expect Federal land management agencies to respect states 
as sovereign and full partners. As the chief executive officers of 
their states, governors also expect to play the principal role in 
determining the best-situated state governmental entity with which an 
agency should consult on any given issue.

    Governors have been very explicit in delineating what, in their 
opinion, qualifies as ``early, meaningful and substantial'' 
consultation:

    <bullet> Predicate Involvement: agencies taking into account state 
            data and expertise to use as a basis for Federal regulatory 
            action;

    <bullet> Pre-publication/Federal Agency Decision-making: pre-
            rulemaking consultation with governors and state 
            regulators, including substantive consultation with states 
            during development of regulations--and prior to launch of 
            formal rulemakings;

    <bullet> Post-publication/Pre-finalization: Governors and state 
            regulators should have the ability to engage with agencies 
            on an ongoing basis to seek refinements to proposed 
            regulations--again, prior to rule finalization; and

    <bullet> Rule/Policy Implementation: agencies should defer to 
            states to formulate implementation and compliance plans 
            where statutorily recognized delegated programs exist.

    The process BLM engaged in with states during development of 
Planning 2.0 falls short of the Governors' definition of consultation. 
In September of 2014, BLM representatives briefed the WGA's Staff 
Advisory Council on preliminary efforts related to Planning 2.0. That 
briefing focused on matters such as an explanation of BLM's interest in 
landscape-scale planning and the agency's general timeline and project 
leadership for the initiative. BLM representatives were not able to 
respond to substantive questions from Governors' representatives during 
that briefing.

    BLM later noted in its proposal that it had consulted with WGA 
during rule development. Western Governors view this preliminary 
briefing--and a subsequent exchange of correspondence between WGA 
leadership and Interior Secretary Sally Jewell--as short of the 
consultation contemplated in WGA Policy Resolution 2014-09. Secretary 
Jewell did state ``[a]s new information becomes available on the [2.0] 
Initiative, BLM will provide updated briefings to state and local 
representatives through . . . the WGA . . . and other venues as 
appropriate.'' These updated briefings did not take place.

    Central to the Western Governors' position is that agency/state 
consultation should be substantive and should take place on an early--
and ongoing--basis. The two preliminary communications from BLM and DOI 
failed to achieve this standard.
                     governors' consistency reviews
    BLM's Planning 2.0 proposal includes a number of provisions that 
weaken the value and impact of Governors' Consistency Reviews in the 
RMP development process:

    <bullet> It states that RMPs must be consistent with officially 
            approved or adopted land use plans of other agencies, state 
            governments, local governments, and tribal governments only 
            ``to the maximum extent practical . . .'' Yet, the Federal 
            Land Policy and Management Act of 1976 (FLPMA)'s Section 
            1712(c)(9) states, ``Land use plans of the Secretary under 
            this section shall be consistent with State and local plans 
            to the maximum extent [the Secretary] finds consistent with 
            Federal law and the purposes of this Act.'' FLPMA clearly 
            does not permit BLM to limit the consistency requirement 
            merely because the agency thinks consistency would be 
            impractical.

    <bullet> The time allotted for governors to conduct their 
            Consistency Reviews is limited to 60 days. The clock alone 
            would forestall states from exercising their statutory 
            right to provide meaningful review of RMPs. Western states 
            have extensive experience working with Federal RMPs. These 
            lengthy documents contain extremely nuanced resource-
            specific--and often site-specific--information. Federal 
            RMPs guide Federal planning decisions for their designated 
            area for up to several decades. Western Governors argue 
            vigorously that development of foundational documents such 
            as Federal RMPs should include significant input from 
            governors and state regulators. That simply cannot occur 
            under the structure suggested by the Planning 2.0 proposal.

    <bullet> Not only does BLM propose to severely limit the time 
            allotted, it also seeks to limit the scope of Governors' 
            Consistency Reviews. The rule would narrow the scope of 
            Governors' reviews by removing the words ``policies, 
            programs, and processes'' from the definition of officially 
            approved and adopted land use plans.

      Governors would no longer be afforded an opportunity to raise 
            concerns based on inconsistencies between BLM RMPs and the 
            very ``state policies, programs, and process'' that guide 
            state planning efforts and decisionmaking but are not part 
            of officially approved and adopted state land use plans. 
            This would clearly limit Governors' participation in RMP 
            review and is especially problematic for states engaged in 
            shared management of threatened and endangered species with 
            vast ranges that span multiple planning areas and multiple 
            states. This change could preclude BLM's consideration of 
            various kinds of state-endorsed plans--for instance State 
            Wildlife Action Plans and multi-state agreements. Multi-
            state agreements have been used for decades to conserve 
            resources like threatened or endangered species. These 
            plans exhibit effective and ongoing cross-jurisdictional 
            planning between states--planning that has taken place on a 
            landscape-level basis. Preclusion of such plans by BLM 
            would undermine its goal of planning on a landscape scale 
            and would threaten existing state conservation efforts.

      Governors have primary decisionmaking authority for management of 
            state resources, and have enacted effective plans to manage 
            and conserve western resources. They therefore must be 
            afforded an opportunity to raise any concerns that arise, 
            not just those concerns that arise from inconsistencies 
            between BLM and state plans.

    <bullet> The proposed rule states BLM may consider whether to 
            adjust the timeline or appeal process for a Governor's 
            Consistency Review. To endow an agency with the flexibility 
            to simply change the process--particularly the mechanism 
            for states to appeal BLM's decision regarding a Governor's 
            Consistency Review--would operate to the clear disadvantage 
            of states.
                          planning assessment
    BLM proposes to establish a new step in the RMP development 
process: the planning assessment. This assessment would occur during 
the scoping process, before BLM begins work on an RMP. The goal is to, 
``combine and revise existing steps for inventory data and information 
collection and the analysis of the management situation.''
    This portion of the rule needs to clarify: the process for states 
to be substantially and meaningfully involved in development of a 
planning assessment; BLM's obligation to use state data and 
information; how state data and information will be gathered; and how--
and when--information supporting assessments will be made available to 
the public.
            proposed changes to public involvement processes
    Early, meaningful and substantive engagement of governors and their 
designated state regulators is crucial to the RMP development process. 
Western Governors also believe that any open and collaborative Federal 
regulatory process must involve adequate opportunity for engagement of 
the public. BLM's proposal falls short in this regard. The agency 
proposes to shorten two key procedural aspects of RMP development:

    <bullet> BLM proposes to shorten comment periods for draft RMPs--
            and the draft environmental impact statements which must 
            accompany RMP development--by a full one-third, from 90 
            days to 60 days; and

    <bullet> BLM proposes a 45-day minimum comment period--a full 50 
            percent reduction from the current 90-day minimum--for EIS-
            level amendments.

    Reductions in public comment timelines will greatly limit input of 
stakeholders, many of whom are likely to be directly affected by RMPs 
for an extended period of time. Additionally, significant changes can 
take place between the time that RMPs and environmental compliance 
documents are drafted. BLM should retain the existing minimum public 
comment period time frames so that states, local governments and other 
stakeholders will have adequate time to fully analyze proposed changes 
and provide meaningful feedback on foundational, long-term land 
management decisions.
    BLM has based its proposed reduced public comment timelines on a 
premise that doing so will reduce the overall decisionmaking timeline. 
Western Governors, however, are concerned that reducing the opportunity 
for stakeholder input early in the planning process will ultimately 
result in increases to the overall planning and RMP implementation time 
frames as stakeholder concerns are raised later in the process. 
Potential litigation stemming from these stakeholder concerns could 
further extend planning and implementation timelines.
              changes to water management aspects of rmps
    BLM's proposed rule indicates the agency may also add provisions to 
its RMPs that could result in greater agency involvement in water 
management, a concerning potentiality for western states. As stated in 
WGA Policy Resolution 2015-08, Water Resource Management in the West, 
``Western Governors believe Federal partners must continue to recognize 
states' primary authority to develop, use, control and distribute 
surface and ground water within state boundaries.''
    Additionally, BLM's proposal indicates the agency may add 
provisions to RMPs that could provide for greater involvement in areas 
affecting traditional state authority. These areas include:

    <bullet> Managing wetlands to buffer the effects of weather 
            fluctuations by storing floodwaters and maintaining surface 
            water flow during dry periods;

    <bullet> Identifying and responding to the degree of ``local 
            dependence on potable water from groundwater recharge in 
            the planning area;''

    <bullet> Estimating the sustained levels of potable water from 
            groundwater recharge based on the current and projected 
            rainfall averages for an area; and

    <bullet> Considering the long-term needs of future generations for 
            renewable and non-renewable resources including watersheds.

    It is vital that nothing in BLM's proposed rule be construed as 
affecting states' primacy over allocation and administration of water 
resources in state borders. BLM's Planning 2.0 must exhibit agency 
recognition and deference to states' legal rights to allocate, develop, 
use, control, and distribute the states' waters.
    Potential implications for water management and quality, and 
project development and maintenance, that should be considered by the 
agency include:

    <bullet> Siting for new water infrastructure on public lands;

    <bullet> Operation and maintenance of existing water infrastructure 
            located on public lands;

    <bullet> Intrusions on states' exclusive authority on water 
            administration and development; and

    <bullet> Impacts on existing watershed plans under Section 319 of 
            the Clean Water Act.

                              transparency
    Any process that reduces BLM's responsibility to actively engage 
with stakeholders represents a retreat from openness and transparency. 
Yet that is what BLM suggests in Planning 2.0. Currently BLM publishes 
RMP documents exclusively in the Federal Register. The Planning 2.0 
proposal, however, would permit the agency to forego formal publication 
of many RMP-related documents. Those documents could instead be posted 
to the BLM Web site and at BLM offices within an RMP planning area. 
This change would significantly impair the ability of affected 
stakeholders, local governments and states to monitor, understand and 
participate in the RMP development and amendment processes.
    The public should be afforded a clear and consistent opportunity to 
review and comment on proposed new or revised Federal RMPs. This is 
particularly true given that management plans have a direct and 
substantial impact on existing multiple use rights such as grazing 
permits, road rights-of-way, conventional and renewable energy 
development permits, and rights-of-way for electricity transmission and 
distribution infrastructure.
                                summary
    In summary, BLM's Planning 2.0 proposal, as drafted, presents 
serious challenges and contains significant shortcomings. This is 
unfortunate, not only for states, but also for local governments and 
stakeholders. In WGA's estimation, much of the opposition to this 
proposal would have been mitigated had BLM engaged in ``early, 
meaningful and substantial'' consultation with Governors in the 
formative stages of the rule's development.
    Chairman Gohmert and Ranking Member Dingell, thank you for the 
opportunity to testify today and to provide the subcommittee with the 
viewpoints of the Western Governors I serve. I hope my testimony has 
been helpful to the subcommittee. I welcome any questions you or your 
colleagues may have.

                                 ______
                                 

  Questions Submitted for the Record by Rep. Gohmert to Jim Ogsbury, 
           Executive Director. Western Governors' Association
    Question 1. During the hearing, you were asked ``[H]ave you heard 
any stories from Western Governors [of] specific instances where they 
were not allowed the voices that they felt they should have in policies 
that affected the people in their states? ''
    To this, you replied, ``[. . .] I would appreciate the opportunity 
to provide a more thoughtful answer for the record.''
    Please provide information about each instance in which a Western 
Governor was not given adequate representation or consideration 
regarding BLM policies that affected the citizens of their respective 
states.

    Answer. Lack of substantive consultation with states during Bureau 
of Land Management (BLM) rulemaking and policy change efforts is an 
ongoing concern of Western Governors. Western Governors have made clear 
their view that prior to intervention in any state-run program, Federal 
agencies should consult with states in a meaningful way and on a timely 
basis. That consultation should involve: predicate engagement before a 
rule is proposed, pre-publication consultation with governors and state 
co-regulators, and post-publication engagement with these parties to 
seek refinements. Finally, as provided for by Congress in various 
statutes, significant deference should be granted to states for 
formulation of state plans designed to implement delegated programs.\1\ 
Two examples of insufficient engagement with governors by Federal 
agencies are discussed below.
---------------------------------------------------------------------------
    \1\ WGA Policy Resolution 2014-09: Respecting State Authority and 
Expertise.

      <bullet> First, and most pertinent to the July 7 Subcommittee 
hearing, is Western Governors' consultation experience regarding BLM's 
Planning 2.0 rule. This consultation fell far short of governors' 
requested engagement with the agency prior to--and during--rule 
development, as well as after publication of the proposed rule.
    In the fall of 2014, Western Governors' and WGA staff were provided 
a briefing by BLM on the agency's Planning 2.0 initiative to revise the 
way it develops and amends resource management plans (RMPs). During 
this briefing, BLM representatives indicated they were not at that time 
able to provide substantive information for state partners on matters 
including the agency's rule development and proposal timeline, its 
plans for state and public engagement, or its plans to ensure 
consistency with existing Federal RMPs and similar state plans. Western 
Governors' staff were told that further opportunities for engagement 
and discussion would be provided by the agency in advance of issuance 
of the proposed rule. These subsequent opportunities did not 
materialize. Instead, governors' staff and state regulators were left 
to monitor BLM publications and announcements regarding the rule's 
development.
    In-person engagement by BLM did not occur until after BLM's 
Planning 2.0 rule had been proposed and comments submitted. That in-
person engagement took place in Jackson Hole, Wyoming in June of 2016. 
While Western Governors appreciate BLM's willingness to meet with state 
partners, they again found the level of engagement to be perfunctory in 
nature. For instance, this meeting lacked specific information about 
BLM's plans to involve governors and state regulators during the 
agency's post-proposal rule revision process. Additionally, there was 
no discussion about BLM's plans for rule implementation or matters 
involving statutorily mandated deference to states.
      <bullet> A second example of less-than-satisfactory state 
consultation by BLM involves the 2015 development of agency sage-grouse 
and sage-grouse habitat management plans. Prior to development and the 
2015 release of BLM and U.S. Forest Service's sage-grouse management 
plans, Western Governors worked with Federal agencies and multiple 
stakeholders in a proactive, collaborative, innovative and 
conservation-focused manner to design effective and sensible plans. BLM 
was involved with these cooperative efforts to develop state sage-
grouse conservation plans, designed to conserve sage-grouse resources 
and habitat.
    Western Governors were concerned that the resource management plans 
ultimately released by BLM were significantly different from, and 
inconsistent with, the cooperatively developed state plans. The scope 
of difference and inconsistency reflected insufficient attention to, 
consideration of, and respect for, the input, experience and insight of 
governors and state regulators.
    Additionally, several Western Governors submitted very 
comprehensive consistency reviews in response to BLM's sage-grouse 
management plans. These reviews detailed inconsistencies between the 
BLM plans and collaboratively developed state plans and pre-existing 
state conservation plans and programs. Agency responses to governors' 
consistency reviews were largely truncated and dismissive. Further 
elaboration on this matter and comments from Western Governors can be 
found on WGA's Web site.\2\
---------------------------------------------------------------------------
    \2\ Western Governors comment on BLM and Forest Service sage-grouse 
management plans. Published August 5, 2015.

    Thank you again for the opportunity to testify before the committee 
and to provide this supplemental response. Please contact me if I might 
---------------------------------------------------------------------------
be of further assistance to the subcommittee.

                                 ______
                                 

    Mr. Gohmert. Thank you very much. I appreciate that opening 
statement.
    The Chair now recognizes Mr. Fontaine for 5 minutes.

    STATEMENT OF JEFF FONTAINE, EXECUTIVE DIRECTOR, NEVADA 
          ASSOCIATION OF COUNTIES, CARSON CITY, NEVADA

    Mr. Fontaine. Chairman Gohmert, Ranking Member Dingell, and 
Chairman Bishop, thank you for the opportunity to testify today 
on BLM's draft Planning 2.0 rule. Nevada has the highest 
percentage of federally managed public lands of any state, 
approximately 85 percent, and five of our counties contain over 
90 percent of public land. The Bureau of Land Management 
administers the majority of this public land, 47 million acres.
    For good reason, the Federal Land Policy and Management Act 
requires engagement specifically with local partners in three 
ways: coordination, consistency review, and meaningful public 
involvement. Local communities are greatly impacted by the 
BLM's land use plans and management decisions, and vice versa. 
Without local partners, the BLM cannot effectively manage their 
land; and without local engagement from BLM, impacts on local 
partners cannot be adequately considered and mitigated.
    As the Nevada BLM's 1997 vision statement says, the future 
of Nevada will, in large part, be shaped by the future of 
public land management.
    Commissioner Jim French from Humboldt County, Nevada, 
testified before this subcommittee and noted three concerns 
with the draft rule: specifically, that BLM has not provided 
sufficient time for counties to fully digest and offer comment, 
that BLM has proposed changes that will diminish the statutory 
role of local governments and reduce requirements to ensure 
consistency with local policies, and that BLM seeks to 
implement a multi-state landscape level of analysis that could 
diminish the ability to meaningfully assess the local impacts 
of BLM management decisions.
    We share these same concerns. Meaningful public involvement 
of local government has not occurred in this rulemaking 
process, and FLPMA distinguishes between the general public, 
state, and local governments, and also imposes a higher 
standard on the BLM for involving state and local government. 
Only a few of our counties have the resources necessary to 
employ a full-time natural resources coordinator of similar 
position dedicated to monitoring proposals from BLM, let alone 
assessing the impacts of sweeping Federal land management 
actions, like Planning 2.0, at the county level.
    That is why meaningful public involvement of local 
government requires more than public notice and comment. That 
Nevada is shaped by the future of public land management 
remains true today, and that is why we have such a strong 
interest in Planning 2.0.
    Nevada's counties perform important sovereign 
responsibilities and provide fundamental services, such as 
planning and zoning, public health and safety, and emergency 
response. They also have an important role in maintaining local 
economies. Nevada experienced an unprecedented economic 
distress during the great recession, but is again a growing 
state with a diversifying economy, including renewable energy 
and other sectors that rely on BLM land.
    Counties need to effectively participate in BLM land use 
planning to promote continued prosperity while protecting 
public lands for future generations. Unfortunately, counties 
with the most public lands are also those with the least 
capacity to engage in BLM land use planning because of their 
limited staffing and resources. For this reason, proactive 
outreach from BLM to local government is a critical component 
of meaningful public involvement.
    We are concerned that the BLM has proposed changes to 
current planning rules that will reduce local government's 
ability to ensure Federal consistency with local master plans 
and policies. FLPMA requires consistency review occur at four 
different stages of the planning process. First it mentions 
appraisal, then consideration, an attempt to resolve, and, 
finally, consistency with state and local plans.
    Instead, proposed regulations say the BLM will determine 
whether the county provided officially approved and adopted 
land-use plans or raise specific inconsistencies with those 
plans. FLPMA does not limit consistency review to land use 
plans, nor require any plans to be officially approved or 
adopted.
    Finally, Planning 2.0 proposes to implement a multi-state 
landscape level of analysis that could diminish the ability of 
BLM to meaningfully assess the local impacts of management 
decisions. Landscape-scale economic impact analysis are likely 
to dwarf local economic costs, which will greatly dilute the 
overall cost in the cost-benefit analysis, even where the cost 
to a local economy might never be recovered. This creates a 
bias and unjustly eliminates BLM's requirement to resolve 
possible economic impacts to local governments.
    A landscape-scale approach that does not involve local 
officials would require state and local governments to spend 
more time and taxpayer dollars building relationships at higher 
levels, and local relationships that have been built over years 
of close collaboration would be de-emphasized.
    On May 25, the Nevada Association of Counties (NACO) 
submitted to the BLM annotated comments and revisions which 
were carefully drafted with a coalition of local and state 
governments. Together, we have developed language that we 
believe helps to achieve BLM's stated goals in Planning 2.0 
while addressing significant local government concerns, 
including preserving the elevated role expressly granted to 
state and local governments under FLPMA.
    We continue to encourage BLM to adopt these comments. Thank 
you again for holding today's hearing. I look forward to 
answering questions from the committee.
    [The prepared statement of Mr. Fontaine follows:]
  Prepared Statement of Jeffrey Fontaine, Executive Director, Nevada 
                        Association of Counties
    Chairman Gohmert, Ranking Member Dingell and members of the 
subcommittee, thank you for the opportunity to testify today on BLM's 
Draft Planning 2.0 Rule.
    My name is Jeff Fontaine and I have served as Executive Director of 
the Nevada Association of Counties (NACO) for nearly 10 years. NACO 
represents all of Nevada's 17 counties and works on their behalf on 
public lands issues including land use planning.
    Nevada has the highest percentage of federally managed public 
lands, approximately 85 percent, of any state in the Union and five of 
Nevada's counties contain over 90 percent public land. The majority of 
this public land, 47 million acres, is administered by the Bureau of 
Land Management (BLM). Nevada alone contains 19.32 percent of BLM land 
following only Alaska at 29.27 percent.
    The Federal Land Policy and Management Act of 1976 (FLPMA) requires 
engagement specifically with local partners in three ways: 
coordination, consistency review, and meaningful public involvement. 
These responsibilities are meant solely for the BLM's partners and for 
good reason: Nevada's communities and economies are greatly impacted by 
the BLM's land use plans and management decisions and vice versa. The 
BLM recognizes these realities, as the Nevada BLM's 1977 vision 
statement says ``The future of Nevada will in large part be shaped by 
the future of public land management.'' Although ecological landscapes 
extend beyond political boundaries, political boundaries represent the 
BLM's local partners and primary on-the-ground managers for each unit 
of land. Without local partners, the BLM cannot effectively manage any 
land. More so, impacts on local partners cannot be adequately 
considered and mitigated for if the BLM's planning regulations do not 
implement a process that works for both the BLM and its partners. It is 
for these common-sense reasons that FLPMA designates counties as the 
BLM's planning partners.
    Commissioner Jim French from Humboldt County, Nevada and a member 
of NACO's Board of Directors testified at your hearing on ``Local and 
State Perspectives on BLM's Draft Planning 2.0 Rule'' on May 12, 2016.

    He noted three concerns with the Draft Planning 2.0 Rule, 
specifically that BLM:

    <bullet> Has not provided sufficient time for counties to fully 
            digest and offer comment on the proposed rule change;

    <bullet> Has proposed changes that will diminish the statutory role 
            of local governments and reduce requirements to ensure 
            Federal consistency with local policies; and

    <bullet> Seeks to implement a multi-state landscape level of 
            analysis that could diminish the ability of BLM to 
            meaningfully assess the local impacts of management 
            decisions.

    We share these same concerns and today would like to expand on 
these issues. Only a few of our counties have the staffing and 
budgetary resources necessary to employ a full-time natural resources 
coordinator or similar position dedicated to monitoring proposals from 
the BLM let alone assess the impacts of sweeping Federal land 
management actions like Planning 2.0 at the county level. That is why 
NACO, along with representatives of state and local governments 
spanning the BLM's jurisdiction requested that the BLM extend the 
public comment period from 60 days to 180 days. The BLM granted only a 
30-day extension until May 25, 2016. This alone indicates the lack of a 
true partnership between local and Federal land management.
    Goals and actions must be viewed as a whole. While the BLM's stated 
goal is to ``ensure participation by the public, state and local 
governments, Indian tribes and Federal agencies . . .,'' the commitment 
must be solidified within the regulatory text. While the discussions 
regarding Planning 2.0 continually stress the importance of local 
relationships, the text of the proposed rule compared to the existing 
regulatory language greatly diminishes in practice the inter-
governmental and public roles. It is important that we work together to 
ensure the language achieves Planning 2.0's positive narrative.
    That Nevada is shaped by the future of public land management 
remains true today and is why we are so concerned and interested in 
collaborating with the BLM on the development of their land use 
planning initiative. Nevada's counties perform important sovereign 
responsibilities. Nevada's counties, like others across the Nation, 
provide fundamental services such as planning and zoning; 
infrastructure, water and wildlife protection, public health and safety 
and emergency response on both private and public lands within their 
jurisdiction. Thus, it is imperative that the BLM maintain regulatory 
language that supports these activities and actively acknowledge the 
counties important responsibilities.
    Nevada's counties also have an important role in maintaining local 
economies. In the last 25 years Nevada experienced periods of 
unprecedented growth in which it led the Nation in population expansion 
and then in economic distress during the ``Great Recession.'' Nevada is 
again a growing state with a diversifying economy which includes 
renewable energy and other industries that rely on BLM administered 
land. We want to make sure that Nevada's counties are able to 
effectively participate in BLM land use planning to promote continued 
prosperity while protecting the public lands for future generations.
    In Nevada, BLM planning is critical for all of our counties--
whether our most rural or most urban. This requires a flexible process 
that relies on collaboration with local officials to address the unique 
needs of our individual counties. Where urban counties may be able to 
provide capacity for BLM rural counties may require additional outreach 
due to a lack of resources. Our two urban counties, Clark and Washoe, 
represent 2.5 million people, or 88 percent of our state's population. 
These counties have comprehensive planning staffs who engage with the 
BLM on land use plans. Unfortunately, the majority of the counties with 
the most public land are also the most rural and economically 
distressed communities. NACO has been making efforts to enhance 
communications about public lands issues and has been co-hosting 
quarterly public lands breakfast meetings in which state, county, U.S. 
Forest Service and BLM officials discuss specific public lands 
challenges in our state. At our most recent breakfast meetings BLM 
officials were interested to hear that our urban counties are 
experiencing challenges encouraging commercial and industrial 
development due to increasingly high prices driven by residential 
developers seeking newly disposed lands. As commercial development is 
one of Nevada's strategic business sectors, our presenters expressed 
ways the BLM might work as a partner with the counties to ensure that 
the use of newly disposed land is driven by the state's key economic 
goals. Similarly, as partners, the BLM and counties can create capacity 
to address non-controversial applications such as right-of-way permits 
which would free up the BLM's time and help increase economic certainty 
for new projects and provide capacity for more Local Area Working 
Groups performing on-the-ground sage grouse habitat restoration 
activities. This is not the type of information included in an 
``officially adopted land use plan'' and likely would not be included 
in a BLM land use plan. It is coordination of local governments and BLM 
that enable the sharing of this critical information. These 
conversations must be ongoing, and if they are not then at a minimum 
they must occur at the forefront of any planning stage.
    In rural counties such as Esmeralda where over 95 percent of their 
land is managed by the BLM, in order to develop economic development 
strategies that will sustain and revitalize their local economy, a 
rural community needs a sense of the existing structure and overall 
trends within the local economy. Thus, the economic impacts of public 
lands management can drastically change that structure and these trends 
for their main economic sectors, including livestock grazing, timber, 
minerals, tourism, agriculture, and water development.
    Again, FLPMA provides three key roles for local government partners 
during the planning process: coordination, consistency review, and 
meaningful public involvement. These statutory mandates are not 
currently reflected within the planning regulations and in many cases 
were actively deleted from the existing regulations. It is not enough 
that the BLM says it will follow the law at what it believes will be 
``appropriate times,'' and it is not enough that the BLM provide 
internal guidance.
                            ``coordination''
    Under the Federal Land Policy and Management Act (FLPMA), the BLM 
must ``coordinate the land use inventory, planning, and management 
activities . . . with state and local governments,'' as well as, 
``provide for meaningful public involvement of state and local 
government officials.'' These requirements apply to all steps of 
resource management planning, including the planning rules. The 
planning rule has not yet been finalized so there is still time for 
changes and for the BLM to work with their state and local government 
partners to address their concerns.
                         ``consistency review''
    NACO is also concerned the BLM has proposed changes to current 
planning rules that will reduce local government's ability to ensure 
Federal consistency with local master plans and policies. As elected 
officials and intergovernmental partners with the Federal Government, 
counties must have a seat at the table and an opportunity to help shape 
management decisions in partnership with land managers. We read FLPMA 
to say that consistency review must occur at four different stages of 
the planning process; it first mentions appraisal, then consideration, 
an attempt to resolve and finally consistency with state and local 
plans.
    Yet the proposed regulations say the BLM will determine whether the 
county provided ``officially approved and adopted land use plans'' or 
raised ``specific inconsistencies'' with those plans. Otherwise, the 
BLM will not review those plans. Nowhere in FLPMA does the language say 
``officially approved,'' ``adopted,'' and it does not limit consistency 
review to ``land use plans.'' The language is intentionally all-
inclusive. These provisions are not in alignment with the BLM's goals 
to improve relationships and speed up the process. The BLM will now add 
a step to determine whether the counties sovereign responsibilities are 
in fact worth reviewing where FLPMA already says that they are.
    Another consequence of limiting consistency review to ``officially 
approved and adopted land use plans'' is state and local governments 
will need to revisit every resource-related plan and program to find a 
way to call it a ``land use plan.'' This is very difficult to 
accomplish and stretches their limited resources.
    ``meaningful public involvement''--applies to rulemaking process
    Meaningful public involvement of local government has not occurred 
in this rulemaking process and is not a term included within Planning 
2.0. FLPMA uses the term ``general public'' separate from ``state and 
local governments'' and also imposes a different standard on the BLM 
for addressing each, respectively. Meaningful Public Involvement is a 
collaborative affair that requires more than public notice and comment. 
Meaningful Public Involvement must be incorporated into the planning 
regulations. The engagement for Planning 2.0 has been exactly the same 
for local governments as for the general public, even for provision 
changes that greatly impact state and local government planning. We 
believe that had BLM done more outreach in counties that contain large 
amounts of public lands and engaged associations like ours they would 
have been able to develop a more workable proposal and address any 
unintended consequences or challenges posed by the proposed rule.
                          ``landscape scale''
    Finally, Planning 2.0 proposes to implement a multi-state landscape 
level of analysis that could diminish the ability of BLM to 
meaningfully assess the local impacts of management decisions.
    Local BLM Officials should drive the planning process, especially 
at a landscape scale. Where planners (deciding officials and 
responsible officials) are elevated to positions outside of the 
planning area, landscape-level planning undermines the purpose of FLPMA 
(and NEPA).
    Landscape-scale economic impact analyses are likely to dwarf local 
economic costs, which will greatly reduce the overall ``cost'' in the 
cost-benefit analysis even where the cost to a local economy might 
never be recovered. This will create bias and unjustly eliminate BLM's 
need to address and resolve the possible economic destruction of one or 
several local governments and programs as a result of their 
decisionmaking.
    Another unintended consequence is a reduced emphasis on local BLM 
relationships. A landscape-scale approach that does not involve local 
officials means that state and local governments will need to spend 
more time and taxpayer dollars building relationships at higher levels 
and the local relationships that have been built over years of close 
collaboration will be de-emphasized.
    The Nevada Association of Counties submitted to the BLM on May 25, 
2016 official comments as well as ``Annotated Comments and Revisions.'' 
The ``Annotated Comments and Revisions'' were carefully drafted with a 
coalition of local and state governments who are partners with the BLM 
in the planning process. Together, we have identified needs and 
developed language that we believe addresses significant local 
government concerns within the Planning 2.0 rule and helps achieve 
BLM's stated goals. Other commenters that submitted the ``Annotated 
Comments and Revisions'' to the BLM include:

    <bullet> State of Nevada Governor's Office

    <bullet> Nevada State Land Use Planning Advisory Council

    <bullet> Clark County, Nevada, City of Las Vegas, City of Henderson 
            joint letter

    <bullet> Churchill County, Nevada

    <bullet> Eureka County, Nevada

    <bullet> Esmeralda County, Nevada

    <bullet> Storey County, Nevada

    <bullet> Wells Nevada Rural Electric Company

    <bullet> Nye County, Nevada

    <bullet> Mineral County, Nevada

    <bullet> National Association of Counties

    <bullet> Utah Association of Counties

    <bullet> Idaho Association of Counties

    <bullet> Rural County Representatives of California

    <bullet> New Mexico Association of Counties

    <bullet> Wyoming County Commissioners Association

    <bullet> Governor of Wyoming

    <bullet> Foundation for Integrated Preservation

    <bullet> McKenzie County, North Dakota

    NACO understands that relationships are keys to any planning 
process. Regulations require training and consistent application and 
where relationships are good they should be afforded the flexibility to 
accomplish mutual goals. We are fortunate to have in Nevada a State BLM 
Director and team with whom we coordinate and collaborate regularly. 
However, we cannot always count on having BLM managers and staff that 
understand our state and are as willing to have an ongoing dialogue 
with our counties. This is why it is extremely important that the BLM 
take the time to get the proposed regulations right.
    Our desire is to work with the BLM to make this a rule that 
strengthens the partnership between the BLM and local and state 
governments, preserves the elevated role expressly granted to state and 
local governments through Coordination, Consistency Review, and 
Meaningful Public Involvement in the planning process and ensures the 
role of the public through the public involvement requirement.

                                 ______
                                 

 Questions Submitted for the Record by Rep. Gohmert to Jeff Fontaine, 
           Executive Director, Nevada Association of Counties
    Question 1. During the hearing I asked ``if you have specific 
instances that you can find where the rules have worked a hardship, 
then let us know those. Please send us those in the days ahead,'' in 
regards to rules promulgated by the BLM.
    Please list specific instances where rules promulgated by the BLM 
have led to compliance hardships for either state, local, or municipal 
officials.

    Answer. We are unaware at this time if other rules promulgated by 
the BLM have led to compliance hardships for either state, local or 
municipal officials. With respect to the planning regulations addressed 
in Planning 2.0, what we have experienced is not necessarily a hardship 
from the existing land use planning rules. Rather, we believe the 
hardship is that the BLM has not followed its existing planning 
regulations.
    Planning 2.0 removes the specific regulatory sections with which 
the BLM has failed to comply. The existing rules, last amended in 2005, 
contain coordination requirements that are meant specifically to 
benefit local governments.\1\ Where the 2005 Amendments added language 
that significantly increased the role of state and local governments, 
now the proposed regulations seek to reverse each of those 
improvements.
---------------------------------------------------------------------------
    \1\ 70 FR 14561.
---------------------------------------------------------------------------
    The state of Nevada along with the majority of our counties are 
involved in a lawsuit challenging the legality of the BLM's ``current 
practices'' regarding land management planning for the Approved 
Resource Management Plans designed to protect the Greater Sage-Grouse. 
This lawsuit alleges that the BLM has failed to adhere to its current 
regulations, specifically those provisions from 2005, and to the 
requirements of the Federal Land Policy and Management Act and National 
Environmental Policy Act. This lawsuit stems from a lack of consistency 
review, coordination, consultation and meaningful public involvement of 
the state and county governments. At the invitation of the Interior 
Secretary \2\ in 2012 and with input from local BLM officials the state 
and counties invested significant time and public resources developing 
conservation plans. Yet last year the BLM signed Records of Decision 
for land management plans that disregard these plans.
---------------------------------------------------------------------------
    \2\ E.O. 2012-19, retrieved at http://gov.nv.gov/News-and-Media/
Executive-Orders/2012/EO-_2012-19_-Establishing-the-Sagebrush-
Ecosystem-Council/.
---------------------------------------------------------------------------
    We understand that Utah, Idaho, Colorado and Wyoming have also 
filed similar lawsuits.
    One purpose of the counties' lawsuit is to ensure compliance with 
FLMPA and the current planning regulations, including several 
regulations now omitted from the proposed language in Planning 2.0. For 
example, 43 C.F.R. Sec. Sec. 1601.3 and 4, which require that in 
amending land use plans the Secretary coordinate with state and local 
governments, consider state and local plans that are germane to the 
development of land use plans for public lands, and provide for 
meaningful public involvement of state and local government 
officials.\3\
---------------------------------------------------------------------------
    \3\ Western Exploration, Case No. 3:15-cv-00491-MMD-VPC at 37.

    Thank you again for your question and we hope this response was 
---------------------------------------------------------------------------
helpful.

                                 ______
                                 

    Mr. Gohmert. Thank you very much.
    At this time, Mr. McAfee, you are recognized for 5 minutes.

 STATEMENT OF CHUCK McAFEE, LANDOWNER AND COMMUNITY VOLUNTEER, 
                        LEWIS, COLORADO

    Mr. McAfee. Mr. Chairman and members of this subcommittee, 
I appreciate the opportunity to share my thoughts with you. My 
grandparents and their 1-year-old son, my father, came to 
Montezuma County in southwest Colorado 100 years ago. They came 
West because their Nebraska farm dried up. They homesteaded and 
began farming by hand-grubbing the sagebrush to plant and to 
harvest crops. They lived in a tent for a couple of years 
through two winters. They hauled water for themselves and for 
neighbors. They were tough, hard workers. Dry-land pinto beans 
and wheat were the crops of the day, and those are important 
today.
    My perspective here is that of a long-time resident, third-
generation on the McAfee farm land. BLM is a neighbor. We are 
governed locally by an elected board of county commissioners. 
My comments come to you from what I observe, what I know to be 
true. In this context, I will address two topics: public 
participation and planning around natural landscape versus 
political boundaries.
    First, I am for as much public involvement as possible, as 
early as possible, in planning for public lands. I am local, I 
am concerned, I am thoughtful, and I do my homework. I take the 
long view. I am a life member of the local chapter of the Rocky 
Mountain Farmers Union, and we understand the relationships 
among public lands and agricultural lands. Local people want 
their voices to be heard. What we think and what we say can be 
extremely valuable in gaining a broad view from long-term local 
experience, interests, ideas, and needs for public lands, 
especially in a place like Montezuma County, where we have a 
lot of public land.
    I don't understand why some county commissioners are so 
opposed to enabling greater public participation. Under 
Planning 2.0, they will not give up their participation, their 
voices and authority will not be diminished. The whole process 
will be made richer by inclusion of public voices early on. 
They are elected to represent us, but that does not translate 
to us giving up the right and responsibility of representing 
ourselves.
    We have perspectives and ideas that are broader and deeper, 
and sometimes they are too busy jockeying with the BLM about 
who is in control of our Federal lands to even represent us at 
all. Recently BLM started a process to discuss whether a master 
leasing plan would be helpful in our area. Our current resource 
management plan does not really get into the details of how and 
when leasing or development happens. Instead of engaging in the 
discussion, our commissioners spent a long time refusing to 
even come to the table, questioning BLM's motives and 
authority. Meanwhile, many of our community members wanted to 
have this discussion, and wished that our commissioners would 
stop obstructing it.
    BLM should take the lead in getting through the rhetoric 
and getting on with dealing effectively with issues through a 
thoughtful, transparent collaboration. I know that it can work, 
and that giving the public more input will only make it better.
    Next, to planning around natural landscape versus political 
boundaries. In my view, this is so simple. The natural 
landscape and resources got here first. Political lines came 
later, and generally were not established with natural 
boundaries in mind. It is obvious when you think of watersheds, 
for example. Those responsible for managing natural resources 
need to have the latitude, and be held accountable for planning 
for the whole picture, the natural picture. In this way, the 
interests of local farmers and ranchers and others who depend 
on these resources will be taken seriously. This is part of the 
reform that BLM was proposing, and local government will 
continue to have a strong voice in this common-sense way of 
managing land.
    BLM's proposal seeks to provide more and earlier 
opportunities for input. This makes sense to me for counties, 
states, tribes, and even folks like me. We care about the land, 
and we want to have a voice in how it is run. Your Web page 
says, ``Empowering people through our Nation's resources.'' 
What better way to empower us than to listen to us as plans are 
developed early on? It is about participation, collaboration, 
and transparency. Thank you for listening.
    [The prepared statement of Mr. McAfee follows:]
Prepared Statement of Chuck McAfee, Landowner and Community Volunteer, 
   Retired Electrical Engineer, Montezuma County, Southwest Colorado
    Mr. Chairman and members of this subcommittee, I appreciate this 
opportunity to share my thoughts with you on the topic of BLM planning 
processes.
    My grandparents and their 1-year-old son, my father, in-migrated to 
Montezuma County in Southwest Colorado 100 years ago. They came west 
because their Nebraska farm dried up. In the midst of the drought that 
we are currently experiencing, I'm not so sure that they would not 
reverse the trek if they were here now.
    My grandma, my granddad, and his sisters homesteaded land in 
Montezuma County where he began farming by hand-grubbing out the 
sagebrush to plant and to harvest crops. They lived in a tent on the 
land for a couple of years, through two winters. They hauled water for 
themselves and for neighbors. They were tough, hard workers. Dry-land 
Pinto beans and wheat were the crops of the day and they remain 
important crops now.
    My perspective here is that of a long-time resident, third-
generation on the McAfee farm land. BLM is a neighbor. We are governed 
locally by an elected board of county commissioners.
    I presume that you know more than I do about BLM's Planning 2.0 and 
I don't intend to address too many details. My comments come to you 
from what I observe, what I know to be true. In this context I'll 
address two topics with you today.
    First, I'll talk about public participation in the planning 
process, including my observations about how that has been going in our 
county and how it can be improved.
    Second, I'll address the issue of planning around natural landscape 
versus political boundaries.
    So, public participation in the planning process: I am completely 
supportive of enabling as much public involvement as possible, as early 
as possible, in planning for public lands. I'm local and I'm concerned. 
I'm thoughtful. I do my homework. I take the long view. I'm a life 
member of the local chapter of the Rocky Mountain Farmers Union 
(probably the oldest member). Our Farmers Union chapter is comprised of 
local family farmers, all ages, dryland farmers, farmers under the 
ditch, small scale, large scale, sheep growers, cattle men and women--
we represent a diversity of agricultural interests in Montezuma and 
Dolores Counties. We understand the relationships among public lands 
and agricultural lands. As you can see in the submission from some of 
other local farmers, we are both affected by decisions on public lands 
and care deeply about them as part of our community.
    We want our voices to be listened to and heard. What we think and 
what we say can be extremely valuable in gaining a broad view of local 
experience, long experience, interests, ideas, and needs relating to 
planning and implementation of plans for public lands. How public lands 
are managed is vitally important to Ag people as well to everyone else 
in a place such as ours where public lands are so prevalent as they are 
in Montezuma County.
    I fail to understand why some county commissioners are so opposed 
to enabling greater public participation. Under Planning 2.0 they will 
not give up participation, their voices and authority will not be 
diminished by public voices. The whole process will be made richer by 
inclusion of public voices, early on. The local elected entities can 
view this as an opportunity to be proactive and inclusive, rather than 
taking a position that their roles are being undermined. They, of 
course, are elected to represent us. Yet that does not translate to us 
giving up the right and responsibility of representing ourselves. We 
have individual and collective perspective and ideas that go far beyond 
the capacity of elected officials to have the whole picture.
    And sometimes our elected officials are too busy jockeying with the 
BLM about who is in control of our Federal lands to even represent us 
at all. The words ``coordinating'' and ``cooperating'' are on the table 
much of the time in these exchanges, while we wish the two parties 
would get on with actually collaborating for the good of our community.
    Recently, BLM started a process to discuss whether a master leasing 
plan would be helpful. Our current Resource Management Plan doesn't 
really get into the details of how and when oil and gas leasing happens 
or development happens, even though we've had a lot of conflict around 
that. Instead of engaging in the discussion, our county commissioners 
spent a long time refusing to even come to the table--questioning BLM's 
motives and authority. Meanwhile, many in our community wanted to have 
this discussion, and wished our commissioners would stop obstructing 
it.
    BLM can and should take the lead in getting through the rhetoric 
and getting on with dealing effectively with issues through thoughtful, 
transparent collaboration. I know from personal experience that it can 
work to great advantage and the public will support such efforts.
    Public voices along with input from officials can be very 
complementary and valuable if we will let it happen. Giving the public 
more input will only make it better.
    A tag line on the House Committee on Natural Resources Web page 
says ``Empowering People Through Our Nation's Resources.'' What better 
way to empower people than to listen to and to hear their voices, their 
thoughts, as plans are developed? It's about participation and 
transparency.
    I also wanted to comment on planning around natural landscape 
versus political boundaries: In my view, this is so simple. The natural 
landscape and natural resources got here first. Political boundaries 
came later, and generally were not established with natural boundaries 
in mind. People and agencies charged with the responsibility of 
managing natural resources and landscapes need to have the latitude, 
and to be held accountable, for planning for the whole picture, the 
natural picture. In this way the interests of local farmers and 
ranchers and others who depend on these natural resources will be taken 
seriously.
    A very real example of this is watersheds. Why not make watersheds 
be a definer for management units? The reality of watershed health and 
water management is a key element to economies and land use in the arid 
American West. It makes so much sense to assess, analyze, organize, 
plan and manage around natural watersheds rather than dealing with 
these realities being confined by political boundaries. It makes no 
sense for a watershed management plan to be different on one side of a 
political boundary from what it is on the other side. No sense. It's 
just natural to be in concert with nature, as those of us who depend on 
natural resources do.
    If the BLM truly values local stakeholders and the way that we 
interact with public lands, it must consider how the people, wildlife 
and use of our public lands impact our farms and other private lands. 
The BLM can only do this by looking at the lands as a whole and 
collaborating with landowners at the landscape-level. This is part of 
the reforms that the BLM is proposing to make and local government will 
continue to have a strong voice in this common sense way of managing 
land.
    The reforms to planning that the BLM is proposing seek to provide 
more participation and transparency earlier in the process. This means 
more participation and transparency for the counties, states, tribes 
and even folks like me. As we all care about and manage our land, we 
should all agree that more conversation and a better understanding of 
how we're having an impact to each other upstream and how we're 
impacting each other downstream is better for everybody.

    Thank you for listening.

                                 ______
                                 

   Questions Submitted for the Record to Chuck McAfee, Landowner and 
                          Community Volunteer
                  Questions Submitted by Rep. Dingell
    Question 1. Was there anything else you wanted to say or respond to 
from the hearing?

    Answer. I would like to emphasize that the BLM's Planning 2.0 
initiative will only help, and not hinder, state, local and tribal 
governments as well as the public participation in land use planning 
for public lands. I appreciate Rep. Dingell's acknowledgement of this 
fact and support for greater transparency and participation 
opportunities through this initiative.
    With that, I believe that with my oral testimony, my written 
testimony, my responses to Rep. Polis' questions, and the letter from 
the Mancos farmers, my comments are complete at this point.
    Thank you for the opportunity to provide input into this important 
process.

                   Questions Submitted by Rep. Polis
    Question 1. Mr. McAfee, under these new rules, local governments, 
like your county, still have special opportunities for participation 
but the public will also have more of a chance to give input. In your 
experience, is the county always sufficiently focused on representing 
its residents? What are the benefits of giving more of a voice to local 
residents whose lives are also affected by decisions made on the public 
lands? The BLM is proposing a more collaborative, transparent and 
democratic process to help navigate the planning process. How, in your 
experience, will more up-front engagement improve the planning process? 
Can that make it more efficient? Will resulting plans have more 
support?

    Answer. I have a fundamental belief that a genuine richness of 
thought and energy come from listening to ideas from multiple, diverse, 
thoughtful individuals and groups, whatever the topic of interest and 
discussion. With this as a backdrop, I will address each of the sub 
questions posed above by Rep. Polis.
In your experience, is the county always sufficiently focused on 
        representing its residents?
    A specific example that illustrates why I do not believe that the 
county focuses adequately on representing its residents has to do with 
the BLM's consideration of creating a Master Leasing Plan (MLP) for 
public lands in Montezuma County. The intent behind the MLP is a simple 
land use planning concept: ensure that oil and gas development occurs 
in the least impactful places and protects others as appropriate. 
Instead of engaging in the discussion, our county commissioners spent a 
long time refusing to even come to the table--questioning BLM's motives 
and authority.
    Meanwhile, many in our community wanted to have this discussion and 
wished that our commissioners would stop obstructing it. Here is a 
quote from an article in the Cortez Journal in June 2016: ``Public 
comment, totaling 350 pages, has been overwhelmingly in favor of an 
MLP, officials report.'' The Cortez City Council voted unanimously to 
support creation of an MLP. 25 local businesses attached their name to 
a statement supporting MLP.
    In spite of this strong local support, the Montezuma County Board 
of County Commissioners (BOCC) remains adamantly opposed.
    Another example: Several years ago a previous BOCC addressed the 
planning and development situation in the Dolores River Valley, along 
the East Fork of the Dolores River. They convened a group of local 
residents who, over a couple of years, came up with a process called 
Transferrable Development Rights (TDRs) to address the issue. Our 
current BOCC, at the end of a day-long public forum attended by 120 
local residents, where five people spoke in opposition of TDRs and 40 
people spoke in favor of retaining the TDR program, suddenly passed a 
resolution to eliminate TDRs from the land use code. The County 
Planning and Zoning committee spoke to retain the TDRs. Four previous 
county commissioners spoke in an attempt to explain the concept to the 
current BOCC and to ask them to retain TDRs. The BOCC admitted that 
they didn't understand it and simply voted it out. They ignored a day's 
worth of thoughtful speakers and 2 to 3 years of thoughtful discussion 
and planning by a diverse group of local residents.
    To me, these are examples of our BOCC listening to what they want 
to hear and dismissing other voices. This is what the BLM seeks to 
avoid when they engage in land use planning through the concepts of 
greater public participation and input through the Planning 2.0 
initiative.
What are the benefits of giving more of a voice to local residents 
        whose lives are also affected by decisions made on the public 
        lands?
    I believe that the benefits of giving more voice to local 
residents, early on, will help create a better, more comprehensive, 
more lasting decision and action. The local residents know what is 
going on. They know the landscape, how it impacts them, how to work, 
live and play with public lands as a neighbor. They know how to address 
their needs and interests while helping plan for and tend to the health 
and sustainability of the public lands. There is no way that any three 
county commissioners can possibly have a comprehensive knowledge or 
understanding of how local residents and the communities are impacted 
by decisions made on the public lands. They can learn by listening to 
local residents. The residents, the public lands, and the community 
will benefit when local ideas are sought and voices are included early 
on.
How, in your experience, will more up-front engagement improve the 
        planning process? Can that make it more efficient?
    First, throughout my corporate experience with the Hewlett-Packard 
Company we engaged employees in the process of visioning and planning. 
We all brought great ideas, different perspectives; we brought energy 
and commitment; we brought the skills necessary to implement the plans. 
We were successful.
    Second, I recently became involved in the Cortez Heart and Soul 
project, funded by the Orton Family Foundation, with the intent of 
learning how to engage all sectors of the community early on in the 
process of developing and maintaining a city plan. This was a 
deliberate effort to solicit voices from throughout the city population 
in the city planning process. So far as I know, no one in the Cortez 
city government or administration felt threatened by inviting local 
residents to participate from the beginning. They did not argue that 
their power was being eroded; rather, they engaged in the process.
    The planning process is inherently more efficient because of the 
transparency created by upfront-engagement by everyone. There is common 
knowledge of the common ground that is being traversed as the plans 
evolve. Local residents have perspective and ideas that go far beyond 
the capacity of elected officials to have the whole picture.
Will resulting plans have more support?
    I believe that it is commonly accepted that people will support 
what they help create. They own it when they participate in its 
creation, when they know that their ideas have merit and are being 
genuinely considered.
    I believe that public lands administrators could start their 
deliberations by asking themselves a few relevant questions. Such as 
``Who else should be at the table? '' ``Who else should be looking at 
this? '' They could first tend to clarity, completeness, and 
relationships.

    Question 2. Mr. McAfee, as someone who's life and livelihood are 
unavoidably linked with and affected by decisions made on the public 
lands, and specifically by the BLM, can you discuss how planning based 
on natural boundaries and for natural resources like watersheds would 
better serve you, other farmers and ranchers, and other members of your 
community?

    Answer. The public lands, all lands, comprise a system. This can be 
thought of as a landscape of connections, where occurrences upstream 
have consequences all the way downstream. Political boundaries 
generally have no association with the system.
    Think of the Dolores River watershed as such a system. Both the 
East Fork and the West Fork of the Dolores River are in Dolores County 
prior to crossing the political boundary (county line) into Montezuma 
County. The river doesn't know the difference--it responds to upstream 
decisions and then follows its natural constraints and boundaries right 
on down. Anything that happens to those streams in Dolores County 
carries right on in to Montezuma County. Decisions upstream impact us 
all. Ranchers, farmers, municipalities all need to know what decisions 
are being made upstream. Those decisions are more sound and effective 
when they are made in the context of natural landscape rather than 
political landscape.
    It makes no sense for a land use plan for a landscape system to be 
different on one side of a political boundary than on the opposite 
side. I firmly believe that BLM should be encouraged and supported in 
its efforts to plan around natural landscape systems. Natural 
landscapes existed and functioned long before the modern construct of 
political boundaries. We should rethink the way we manage those 
landscapes.

    Question 3. Mr. McAfee, I have a letter here from a number of local 
farmers in the Mancos Valley expressing their support for the 
principles of Planning 2.0. The letter talks about how the BLM's master 
leasing plan process in the area providing ``opportunities for us to 
bring our concerns and vision for our neighboring public lands early on 
in the process'' how ``making decisions on how to manage the land 
should start from similar concerns for the health of the land as a 
whole, including consideration of our farming operations, rather than 
driven by political boundaries.'' Can you talk some more about the 
farming community in your area, how you've previously engaged with the 
BLM and how you see these planning rules improving cooperation and land 
management?

    Answer. I believe that the letter to which you are referring makes 
the points beautifully, regarding living and farming alongside public 
lands. What's been happening in this context is that BLM has been quite 
transparent in seeking input to help with its MLP decision. This is in 
contrast with previous experiences where we the public were presented 
with an array of displays that attempted to inform us about the various 
options that were being considered. We had little or no background 
information, or context. I don't recall seeing anything that spoke to 
landscape-level planning or consideration of the health of the land as 
a whole.
    I know these farmers. They are young, energetic, responsible, 
small-scale. They show up and engage with ideas and comprehensive 
perspectives. We all, the local residents, will respond positively to 
transparency and inclusion just as these farmers have. It's a certainty 
that these proposed planning rules and processes will improve 
cooperation (we will own the results) and land management (BLM will 
have gained great input that otherwise would have been lost).
    As I pointed out in my written testimony in July, your Web page 
says ``Empowering People Through Our Nation's Resources''. What better 
way to empower us than to listen to us as plans are developed? It's 
about participation, collaboration and transparency. Working alongside 
elected officials and agency employees, we local residents can make a 
positive difference.

                                 ______
                                 

    Mr. Gohmert. Thank you very much. I appreciate your 
testimony, Mr. McAfee.
    At this time, the Chair recognizes Mr. Lyons for 5 minutes.

 STATEMENT OF JIM LYONS, DEPUTY ASSISTANT SECRETARY, LAND AND 
     MINERALS MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR, 
                         WASHINGTON, DC

    Mr. Lyons. Chairman Bishop, Chairman Gohmert, and Ranking 
Member Dingell, I appreciate this opportunity to appear before 
you today to discuss BLM's proposed amendments to its planning 
rules.
    As you know, FLPMA was enacted into law about 40 years ago. 
The framework for developing and amending BLM's land resource 
management plans has changed little in the past three decades 
and, in fact, has only been revised slightly. Yet much has 
changed in the past 40 years with regard to management and the 
use of the public lands.
    New uses, such as renewable energy production, are a part 
of an expanding variety of public land uses. Conflicts between 
users and uses of public lands are increasing, as pressures 
mount on rural communities to try to maintain their economic 
flow, meet the needs for their economies, and, at the same 
time, address the expanding interests of others.
    Factors affecting the use and management of the public 
lands are going beyond traditional planning boundaries, 
resulting in impacts on, as Mr. McAfee said, watersheds, 
landscapes, and regions. I think there are plenty of examples 
of that today, dealing with fire, invasive species, water 
supplies, and wildlife habitat.
    The current planning framework has been the source of 
frustration for many people, from community leaders, to public 
land users, to other stakeholders and, in fact, the planners 
themselves. The Bureau has heard many complaints about the 
planning process from many of these and, in fact, in 2011 
initiated an internal effort to review the planning process. At 
that point in time, they recommended the need for change in the 
process.
    The complaints, again, were many. The process takes too 
long, it is not transparent, opportunities for input are few, 
and final plans, in the end, do not meet our needs. For these 
reasons and for others, the BLM has proposed new rules for 
public land use planning that have been in development for a 
number of years. These proposed rules are really built on the 
foundation of the current planning process, but they represent 
a sincere and serious effort to try to address the many 
concerns and complaints that have been raised by a wide range 
of stakeholders with regard to BLM planning process.
    The proposed rules provide for some important improvements 
in the planning process, and I will just highlight a few.
    First and foremost, the planning rules seek to provide 
additional opportunities for input earlier in the planning 
process. Through the establishment of an assessment 
requirement, actually, before formal planning begins, the 
opportunity exists for everyone to provide input into the 
process, to share data, information, ideas, ways to identify 
and deal with conflicts, and potential areas of agreement as a 
foundation for planning.
    In essence, the purpose of the assessment is to provide a 
common baseline to share information and have everyone bring 
their views, perspectives, and resource information to the 
table. I would suggest that that in particular can be a 
significant benefit to local communities and counties who may 
not have the resources to do their own assessments, but can, in 
fact, benefit from those assessment reports that are prepared 
before the formal planning process begins.
    Second, resource management issues are not conveniently 
limited to traditional planning boundaries. Unfortunately, 
under current rules, no matter how expansive the concern or the 
particular need, we are required to do plans within the 
existing planning boundaries. So, when a wildfire crosses state 
lines, we have to develop plans that fit those particular 
circumstances in the current planning process.
    Under the proposed rule, the planning boundaries can be 
adjusted to the scale necessary to deal with the issues of 
concern. This can increase efficiency and effectiveness. It 
does not, in any way, negate the importance of local input and 
the value of that stakeholder, coordinator, and cooperator 
involvement. Nevertheless, it can help us do things in a more 
efficient and effective way. The same data analysis can help 
inform the planning process and all participants in moving 
forward, but dealing with the issue at the appropriate scale, 
in an appropriate manner, and hopefully in a much more 
efficient and effective way.
    Third, the proposed planning rule process actually 
reaffirms the unique role the cooperators play in working with 
the Bureau and helping with the development of land use plans. 
Cooperators can work with planners throughout the process and, 
similar to the current process for the engagement of 
cooperators, they become a part of the planning team from the 
very outset. In fact, many of our people talked about providing 
desk space and a chair for representatives who are cooperators 
from local and state government. So, cooperators' opportunities 
are not negated in any way. In fact, we think they are enhanced 
through this more open and earlier planning process.
    Now, unfortunately, there is a great deal of misinformation 
and, I think, misunderstanding out there with regard to the 
Planning 2.0 effort and the BLM's proposed planning rule. We 
certainly look forward, Mr. Chairman, to working with all those 
who depend upon the public lands or have an interest in their 
lands, to try to address these concerns and put together a 
final rule that we think will help improve the planning and 
management of our public lands. Thank you.
    [The prepared statement of Mr. Lyons follows:]
 Prepared Statement of Jim Lyons, Deputy Assistant Secretary, Land and 
          Minerals Management, U.S. Department of the Interior
    Thank you for the opportunity to present the views of the 
Department of the Interior regarding the Bureau of Land Management's 
(BLM) proposed planning rule. The proposed planning rule is part of the 
BLM's ongoing efforts to improve the way that the BLM develops land use 
plans that guide the management of the public lands administered by the 
Bureau as authorized by the Federal Land Policy and Management Act of 
1976 (FLPMA).
    This proposed new rule is the culmination of over 2 years of 
outreach and discussion with state and local governments, communities, 
stakeholders, other governmental partners, and the public and reflects 
many of the lessons learned and best practices developed over the last 
40 years of land use planning. This proposed rule responds to the 
recommendations and concerns raised by state and local governments, 
stakeholders, and the public to modernize and improve our land use 
planning process in ways that make our efforts more collaborative, 
transparent, and efficient.
                               background
    The BLM manages 10 percent of the land in the United States and 30 
percent of the Nation's minerals. Under FLPMA, the BLM is required to 
develop land use plans in partnership with state, local, and tribal 
governments, as well as the public, to manage these diverse public land 
resources in accordance with the BLM's multiple-use and sustained yield 
mission unless otherwise provided by law. BLM land use plans establish 
goals and objectives to guide future land and resource management 
actions implemented by the BLM.
    The regulations governing the BLM's land use planning process are 
more than 30 years old. Pressures are increasing on BLM-administered 
lands and land managers to better balance often competing and 
increasingly conflicting uses of the public lands. The BLM and its 
stakeholders, including state and local governments, have also 
experienced an increased number of practical challenges, including 
unexpected delays, higher expenses, and expanded legal issues in 
managing these lands. Resource issues such as invasive species, 
wildfire, energy transmission, and wildlife conservation cross 
traditional administrative and jurisdictional boundaries making current 
planning less efficient and more costly to implement.
    State, local, and tribal government officials and representatives 
of diverse stakeholder groups have expressed concern about the current 
process, stating that they often feel disconnected from the BLM's land 
and resource management planning process. We have heard the process 
described as one characterized by long waiting periods punctuated by 
short periods in which stakeholders have to digest and respond to large 
volumes of information. This can be exacerbated by the need to 
supplement draft plans that have been in process for years when new 
issues are identified or additional information is required late in the 
planning process. Delays in BLM planning efforts increasingly consume 
BLM staff capacity and resources that could otherwise be spent 
addressing critical resource management priorities.
    We understand and share many of these concerns. These factors, 
combined with the changing nature of the demands on public lands and 
the increasingly complex and conflicting issues that result, served as 
a catalyst for the BLM to update its land use planning process. The 
effort was launched in 2014.
                        current planning process
    The current land use planning process begins with a formal public 
scoping process to identify planning issues that should be considered 
in the land management plan. The BLM analyzes these and uses them to 
develop a range of alternative management strategies.
    The range of alternatives is initially presented in a draft 
Resource Management Plan (RMP) and draft environmental impact statement 
(EIS), in which the BLM must identify a preferred alternative. The 
release of the draft RMP and draft EIS is followed by a 90-day public 
comment period. Once comments have been reviewed and evaluated, the BLM 
revises the draft plan, as appropriate, and then releases a proposed 
RMP and final EIS.
    Release of the proposed RMP and final EIS initiates a 30-day 
protest period for any person who previously participated in the 
planning process and has an interest that is (or may be) adversely 
affected by the proposed plan. At the same time, the BLM provides the 
proposed plan and final EIS to the governors of those states included 
in the RMP for a 60-day consistency review period to identify 
inconsistencies with state and local plans. After inconsistencies and 
protests have been considered, the BLM State Director can approve the 
final RMP.
                           the proposed rule
    The proposed planning rule includes some important updates and 
improvements to the current process. These changes, consistent with 
FLPMA, are intended to: (1) respond to specific, articulated issues 
with the current planning process; (2) improve opportunities for state 
and local governments, stakeholders, and the public to better provide 
input to plans from the outset; and (3) reduce time delays, costs, and, 
we believe, the chance of litigation.
    For example, the proposed rule would add a requirement for the 
development of a planning assessment as a first step. This planning 
assessment would provide an opportunity for the BLM, state, tribal, and 
local governments, stakeholders, and the public to work together before 
any scoping or drafting takes place to better understand the existing 
conditions in the planning area, and to identify the types of data and 
information that will be necessary during the planning process. 
Gathering relevant data and information would be an important part of 
the assessment and would improve understanding of key resource issues 
and conditions, and other issues in the planning area. During this 
phase, participants would also be able to provide early input into 
identifying the planning area boundary, and would help identify data to 
use during the planning process.
    State, tribal, and local government entities would also be invited 
to participate as cooperating agencies at this time. The special role 
of state, tribal, and local government entities is fully preserved in 
the proposed rule, and is discussed in more detail below.
    The rule would also add the opportunity for a public review of and 
input on preliminary alternatives before the draft RMP is written. We 
believe that the production of a planning assessment and additional 
opportunities for input into development of the plan alternatives would 
help to improve the effectiveness and timeliness of land use plans. We 
believe these measures could also reduce delay and the chances of 
litigation as concerns and potential conflicts between competing land 
and resource users and uses would surface earlier, and opportunities to 
address these concerns could be initiated sooner. The need for 
supplemental analyses and data gathering would be reduced.
    These planning process improvements would provide new opportunities 
for public input early in the planning process. However, they would not 
change the special status currently afforded to state, local, and 
tribal governments. Opportunities for more frequent check-ins with 
governments and stakeholders during the development of the draft plan 
would also help the BLM identify errors or missing information earlier 
in the process.
    Under the proposed rule, after an RMP has been adopted and is being 
implemented, the BLM would publish a summary report on the 
effectiveness of the plan. This summary report would enable state, 
tribal, and local governments and the public to track implementation 
progress. It would also enable the BLM to determine whether 
implementation strategies need to be adjusted, or if the RMP needs to 
be amended or revised to more effectively achieve management goals.
    The BLM believes that these changes will contribute to a more 
efficient and cost-effective planning process that should reduce the 
amount of time and resources the BLM would have to spend to develop and 
maintain land and resource management plans. The BLM would be able to 
react more quickly to address local needs, and amend land use plans in 
ways that may be critical to enabling local economies to adapt to 
changing circumstances.
 affirming the unique role of state, local, and tribal governments in 
                          the planning process
    FLPMA, the National Environmental Policy Act, and the proposed rule 
provide state, tribal, and local governments a special role in the 
BLM's land use planning process. This role is important to the BLM in 
ensuring the best quality plans are prepared.
    First, FLPMA directs the BLM to coordinate with state, local, and 
tribal governments to assist in resolving inconsistencies between BLM's 
land use plans and local land use plans, to the maximum extent 
consistent with Federal law and the purposes of FLPMA. Specifically, 
Section 202(c)(9) provides, in part, that, in the development and 
revision of land use plans, the BLM shall:

        to the extent consistent with the laws governing the 
        administration of the public lands, coordinate the land use 
        inventory, planning, and management activities of or for such 
        lands with the land use planning and management programs of 
        other Federal departments and agencies and of the states and 
        local governments within which the lands are located . . . In 
        implementing this directive, the Secretary shall, to the extent 
        the he finds practical, keep apprised of state, local, and 
        tribal land use plans; assure that consideration is given to 
        those state, local, and tribal plans that are germane in the 
        development of land use plans for public lands; assist in 
        resolving, to the extent practical, inconsistencies between 
        Federal and non-Federal Government plans, and shall provide for 
        meaningful public involvement of state and local government 
        officials, both elected and appointed, in the development of 
        land use programs, land use regulations, and land use decisions 
        for public lands, including early public notice of proposed 
        decisions which may have a significant impact on non-Federal 
        lands.

    Cooperating agencies work closely with the BLM at every stage of 
the planning process to identify issues that should be addressed, 
collect or analyze data, develop or evaluate alternatives and, of 
course, review preliminary documents. This unique partnership is 
provided only to governmental entities and helps the BLM develop a land 
use plan that is responsive to the needs and concerns of local 
communities.
    For example, after the public scoping period, the BLM would 
collaborate with cooperating agencies to develop a preliminary range of 
alternatives and rationales, and to identify the preliminary 
procedures, assumptions, and indicators to be used in the analysis. The 
BLM would make preliminary versions of these key planning documents 
available to state, tribal, and local governments and interested 
stakeholders for review. The BLM would use feedback gained from this 
opportunity to develop alternatives in the draft land use plan that 
more fully address local needs and the concerns and information shared 
by various stakeholders during the early stages of the planning 
process.
    There are no changes to the status or role of cooperating agencies 
being considered as part of this draft rule. The BLM is committed to 
continuing its collaborative relationship with state, tribal, and local 
governments, as it has, consistent with FLPMA.
 public participation in development of the proposed planning rule and 
                 after publication of the proposed rule
    In 2014, the BLM launched a campaign to garner feedback on the 
initial ideas for updating its land use planning rules. The capstone of 
that campaign was a series of public listening sessions in Colorado and 
California in the fall of 2014. Through that listening process, 
stakeholders submitted more than 6,000 written comments; those comments 
provided invaluable feedback and formed the backbone for the 
development of the proposed rule. The BLM also presented information on 
its efforts to improve the planning process and the proposed rule at 
multiple stakeholder events, including: the 2014 and 2015 North 
American Wildlife and Natural Resources Conference, webinars hosted by 
the National Association of Counties, and Western Governors Association 
meetings.
    Since the release of the proposed rule on February 11, 2016, the 
BLM extended the comment period by 30 days in response to requests from 
the public; hosted a public meeting in Colorado in March 2016; and 
conducted multiple webinar outreach sessions in March and April 2016. 
Recordings of all of these events are available for viewing on the 
BLM's Web site.
    In addition to outreach to the general public, the BLM has had 
several conversations with National Association of Counties (NACo) 
members and hosted a question and answer session with county and state 
governments. The BLM hosted a question and answer session for county 
representatives at the NACo Western Interstate Region conference on May 
27. Finally, the BLM conducted government-to-government consultation 
with federally-recognized tribes and hosted an informational webinar 
specifically for tribal representatives in May 2016. Recently, BLM 
leadership briefed staff of the Western Governors' Association this 
past weekend on the proposed planning rule and answered questions that 
they posed.
                               conclusion
    In recent years, the BLM has received valuable feedback from state, 
local, and tribal governments, other stakeholders, and the public that 
its existing planning process takes too long, is too costly, and is 
difficult to follow. We take this feedback seriously, and recognize the 
need for improvements in our current planning process. The Planning 2.0 
Initiative was developed to assess the strengths and weaknesses of the 
current planning process; identify state, local, and other stakeholder 
and public concerns, and to develop ``fixes'' for the issues identified 
in order to make the BLM planning process more efficient, cost-
effective, and relevant to the issues affecting public land management 
today--nearly 30 years since the current planning rules were 
formulated. The proposed BLM planning rule incorporates lessons learned 
from the development of hundreds of land use plans and feedback 
received through numerous public meetings, webinars, briefings, and 
conversations over the past 2 years.
    Fostering close working relationships with local communities and 
increasing transparency and opportunities for state and local 
officials, stakeholders, and the public to participate in the planning 
process earlier and more often would allow the BLM to develop and 
maintain meaningful and effective land use plans. This updated approach 
to planning would also allow the BLM to react more quickly to amend 
land use plans to better address local needs and changing land and 
resource conditions, to enhance local communities' ability to adapt to 
changing circumstances, and ensure that the BLM can meet its legal 
mandate to manage the public lands for multiple-use and sustained yield 
for generations to come.
    Thank you for the opportunity to appear before you today to present 
the views of the Department of the Interior regarding the Bureau of 
Land Management's (BLM) proposed planning rule. I am happy to answer 
any questions that you may have.

                                 ______
                                 

   Questions Submitted for the Record to Jim Lyons, Deputy Assistant 
    Secretary, Land and Minerals Management, U.S. Department of the 
                                Interior
                  Questions Submitted by Rep. Gohmert
    Question 1. Every state has a state forest action plan (FAP) which 
was publicly vetted, is regularly updated and which provides guidance 
for all ownerships. These plans can be viewed for any state at 
forestactionplans.org. (FAPs, which include assessments and strategies, 
were mandated per the Farm Bill.) Since these plans provide guidance 
for vegetation management--including riparian areas, fuels priorities, 
forest insects and disease and fire management across all ownerships, 
it would appear that they should be foundational documents in BLM's 
planning process.
    Why are state forest action plans not specifically mentioned as 
primary base documents in BLM's 2.0 planning process?
    Do you consider input from state government officials with primary 
authority for activities and guidance across all boundaries to have the 
same weight as comments from an individual or small NGO?

    Answer. While state forest action plans are not specifically 
mentioned in the proposed rule, they represent an example of the types 
of documents that may be gathered and reviewed during the planning 
assessment. The plan assessment process will enhance opportunities for 
state and local input by setting the stage for the planning process as 
well as enhancing the ability of local governments and other interests 
to gather information to help them in their own planning processes.
    The existing, proposed, and final rule include provisions for the 
special relationship and involvement of cooperating agencies and 
coordination with other Federal agencies, state and local governments 
and Indian tribes. Specifically, under the proposed rule, to the 
maximum extent practical and consistent with FLPMA and other Federal 
laws, BLM Land Use Plans must be consistent with those of local, state, 
Federal, and tribal governments.

    Question 2. During the hearing, Representative Labrador asked if 
states other than Idaho have requested the withdrawal or substantive 
rewriting of the proposed rule . . .
    To this you replied, ``We have heard from a number of states who 
are concerned about the rule. [. . .]''
    Afterward, Mr. Labrador asked you, ``and have they specifically 
made request to just start the process over? ''
    To this you replied, ``I would have to check on the specifics, 
Congressman.''
    Please provide a list of the states below that requested withdrawal 
or re-writing of the rule. Specifically include information about what 
each state requested and their reasoning for the request.

    Answer. The state of Alaska requested that the BLM revise the 
proposed rule and allow for an additional public review and comment 
period on that revision. Alaska expressed support for the goals of 
increased public involvement, efficiency, clarity, and transparency, 
but expressed concern that the proposed rule would create delays in the 
planning process. Alaska expressed additional concern that the planning 
rule would not address issues unique to their state and may further 
complicate issues related to subsistence, economic development, and 
implementation of other Federal laws including the Alaska National 
Interest Lands Conservation Act (ANILCA).
    The states of Idaho and New Mexico requested that the BLM withdraw 
the proposed rule, contending that BLM did not sufficiently consult 
with state governments.
    The state of Nevada requested that the BLM amend the proposed rule 
to address its concerns that the proposed rule reduced transparency, 
diminished the role of coordination with state and local governments, 
and should have allowed for more input from western states.
    The state of Utah requested that the BLM withdraw the proposed rule 
for analysis under NEPA, or amend the proposed rule where necessary to 
address concerns regarding coordination of land management with state 
and local governments and to ensure the role of cooperating agencies in 
planning.
    The state of Wyoming requested that the BLM withdraw the proposed 
rule because many of the goals the BLM expressed are accomplishable 
under existing regulations and suggested that the BLM better clarify 
the opportunities for cooperation, coordination, and public involvement 
in the planning process.

    Question 3. During the hearing, I asked about state's primacy over 
allocation and administration of water resources within their 
respective borders, ``[. . .] the BLM proposals here indicate the 
agency may [. . .] add provisions to its RMPs to increase agency 
involvement in water management. Specifically, what aspects of water 
management allocation would BLM incorporate into the future in new or 
amended RMPs? ''
    To this you replied, ``[. . .] I am actually not aware of that,'' 
and, ``I am going to have to do a little homework and try to understand 
where the impression came from.''
    Please provide information about what aspects of water management 
allocation BLM would incorporate into new or amended RMPs.

    Answer. The rule does not indicate or imply that BLM will increase 
its involvement in water management and does not discuss water 
management allocations. The rule does incorporate language from FLPMA 
to identify general management objectives in the planning regulations, 
specifically that the BLM manage public lands, ``to protect the quality 
of [. . .] water resource[s].'' The preamble to the proposed rule 
provided both surface water and groundwater as examples of water 
resources for establishing baseline conditions in the planning area as 
part of Section 1610.4--Planning Assessment, but it does not increase 
agency involvement in water resource management.

    Question 4. Please provide specific information about the pilot 
program for BLM 2.0, including information about where it was 
implemented, any guidelines used to assess its outcome, involvement of 
state and local governments in the pilot program, and information about 
state and local government reactions to the pilot program pilot 
program.

    Answer. The BLM has applied some principles of Planning 2.0 in 
several new plan revision efforts, particularly the principle of early 
and frequent public involvement and planning at appropriate scales. 
These new planning revisions currently underway include the Eastern 
Colorado RMP, the Missoula RMP, and the Northwestern California 
Integrated RMP. The response to these planning efforts has been 
extremely supportive. Local governments and the public have expressed 
strong support for the upfront engagement of the public during the 
planning assessment phase.

    Question 5. How is it appropriate for the BLM to employ a NEPA 
Categorical Exclusion process for a proposed rule that is controversial 
and contrary to the congressional intent and language of FLPMA? Why is 
BLM using a CatEx for a rule affecting over 245 million acres of land 
and 700 million acres of subsurface mineral estate when the BLM 
requires a higher level of NEPA review for much smaller projects, such 
as a 1-acre telecommunications site?

    Answer. As described in the categorical exclusion documentation for 
the rule, the existing and final planning rules are entirely procedural 
in character. The BLM believes the categorical exclusion is the proper 
form of NEPA compliance for this action under 43 CFR 46.210(i). As 
discussed in the documentation, The actual planning decisions reached 
through the planning process are themselves subject to compliance with 
NEPA's analytical requirements as well as with the statute's public 
involvement elements. For this reason, the BLM's reliance upon this 
categorical exclusion is appropriate.

    Question 6. Has at least one public hearing been held in each state 
where the proposed rules would apply? How has your process consistent 
with Executive Order 13563 which states that ``regulations must be 
based on the best available science and that the rulemaking process 
must allow for public participation and an open exchange of ideas.''

    Answer. Formal public hearings were not conducted in each state 
where the rule would apply. The rule complies with Executive Order 
13563. With respect to public participation, the BLM launched the 
Planning 2.0 initiative in May 2014 by seeking public input on how the 
land use planning process could be improved. The BLM developed a Web 
site for the initiative (www.blm.gov/plan2) and issued a national press 
release with information on how to provide input to the agency. The BLM 
held public listening sessions in Denver, Colorado (October 1, 2014) 
and Sacramento, California (October 7, 2014). Both meetings were led by 
a third-party facilitator and were available to remote participants 
through a live broadcast of the event over the Internet via livestream. 
The goals of these meetings were to share information about the 
Planning 2.0 initiative with interested members of the public, to 
provide a forum for dialogue about the initiative, and to receive input 
from the public on how best to achieve the goals of the initiative. 
Prior to issuing the proposed rule, the BLM conducted outreach to BLM 
partners. Outreach included multiple briefings provided to the Federal 
Advisory Committee Act chartered RACs; a briefing for State Governor 
representatives coordinated through the Western Governors Association; 
a briefing for State Fish and Wildlife Agency representatives 
coordinated through the Association of Fish and Wildlife Agencies; 
multiple briefings for other Federal agencies; a Webinar for interested 
local government representatives coordinated through the National 
Association of Counties; and meetings with other interested parties 
upon request.
    Following publication of the proposed rule, the BLM held one public 
meeting in Denver, Colorado (March 2016) and two Webinar meetings. All 
meetings were led by a third-party facilitator and were available to 
remote participants through a live broadcast of the event over the 
Internet or through Webinar access. The goal of these meetings was to 
share information about the proposed rule and answer questions from the 
public as they prepared their response to comments. During the comment 
period on the proposed rule, the BLM also held a Webinar for interested 
local government representatives coordinated through the National 
Association of Counties. The BLM also held meetings with other 
interested parties upon request.

    Question 7. Section 202(c)(9) of the Federal Land Policy Management 
Act (FLPMA) requires meaningful coordination with counties. County 
Leaders represent all of their constituents and must have continued 
government to government communications as the FLPMA Section 202(c)(9) 
coordination statute provides. Section 202(c)(9) provides counties with 
meaningful involvement with BLM as it prepares and conducts significant 
Federal actions, such as changing land use plans. Why does the proposed 
rule relegate counties to the same stature and status as any non-
government entity (NGO) instead of maintaining their status under 
FLPMA?

    Answer. FLPMA requires that the BLM keep apprised of state, local 
and tribal land use plans and assist in resolving, to the extent 
practical and consistent with Federal law, inconsistencies between 
Federal and non-Federal Government plans (see 43 U.S.C. 1712(c)(9). The 
provisions in the rule that address coordination and consistency afford 
state, local, and tribal governments the opportunity to coordinate with 
the BLM in the development of resource management plans, with the goal 
of increasing consistency between Federal, state, local, and tribal 
land use plans.
    State, local, and tribal governments that have special expertise or 
jurisdiction by law (see 40 CFR Sec. 1501.6 and 43 CFR Sec. 46.230) are 
also invited to partner with the BLM in developing resource management 
plans as cooperating agencies. In most cases, formal cooperating 
agencies have access to preliminary and deliberative draft documents 
that are not routinely made available to the public.
    Under existing rules, state and local governments that do not 
participate as cooperating agencies may review planning documents when 
they are made available to the general public with the draft resource 
management plan. The rule provides additional opportunities to these 
state and local governments to review planning documents including: (1) 
the planning assessment report; (2) the preliminary statement of 
purpose and need; (3) the preliminary range of alternatives; (4) the 
preliminary rationale for alternatives; and (5) the preliminary basis 
for analysis.

    Question 8. How can the BLM institute ``landscape level planning'' 
but avoid ``one-size-fits-all'' solutions that do not work due to 
variables on the landscape?

    Answer. Although the BLM currently uses the field office as the 
default planning area, in practice the BLM plans at the most 
appropriate and relevant scale for the resource and management issues 
being addressed in an individual planning effort. The intent of the 
final planning rule is to ensure that the BLM avoids a ``one-size-fits-
all'' approach by considering all relevant scales in its planning 
process, rather than defaulting to a field office scale. The BLM would 
continue to consider impacts on local conditions and local economies, 
as well as impacts at regional and national scales during individual 
planning efforts. The BLM believes it is appropriate and necessary for 
a deciding official to consider all relevant scales and information 
before rendering a decision.

    Question 9. Logically, land management decisions should be made at 
the level closest to the lands being managed. Will this rule create the 
scenario where the BLM Director becomes the deciding official and the 
planning activity becomes removed from the local area to be undertaken 
by a project team of Washington, DC bureaucrats responsible only to the 
Director?

    Answer. The BLM will continue to select line-officers who are 
highly qualified for any given decisionmaking process. The BLM takes 
seriously the responsibility of a line-officer to make well-informed 
decisions and consider the impacts such decisions have on the public 
and the public lands. The BLM's commitment to qualified and well-
informed decisionmaking will not change under the proposed planning 
rule.

    Question 10. The current BLM rules contain a definition of 
``consistent,'' that the ``Bureau of Land Management plans will adhere 
to the terms, conditions, and decisions of officially approved and 
adopted resource related plans, or in their absence, with policies and 
programs, subject to the qualifications in Section 1615.2 of this 
title.'' Why is this definition being removed?

    Answer. The rule removes the definition of the term consistent 
because the definition is unnecessary as it is commonly used 
terminology. Section 1610.3-2 of the rule describes the requirements 
for consistency and would require that RMPs be consistent with state 
and local plans to the extent practical and consistent with Federal 
laws, including the FLPMA.

    Question 11. The current rule emphasizes that the impact of BLM 
land use decisions ``on local economies, uses of adjacent or nearby 
non-Federal lands and on non-public land surface over federally-owned 
mineral interests shall be considered.''
    Why is the proposed rule written to erode the importance of 
protecting local economies and uses on nearby non-Federal lands and 
shift the focus to the ``impacts of resource management plans on 
resource, environmental, ecological, social, and economic conditions at 
appropriate scales.''

    Answer. Consideration of resource, environmental, ecological, 
social and economic conditions is consistent with the principles of 
multiple use and sustained yield and therefore consistent with the 
Federal Land Policy and Management Act. Multiple use, as defined in the 
Federal Land Policy and Management Act, includes ``the management of 
public lands and their various resource values so that they are 
utilized in the combination that will best meet the present and future 
needs of the American people.'' Consistent with FLPMA, the BLM must 
seek to understand the present and future needs of the American people, 
and the assessment of resource, environmental, ecological, social and 
economic conditions is an important tool to help the BLM understand the 
present and future needs of the American people at the local, regional, 
or national scale. The rule requires that all values associated with 
the management of public lands (i.e., environmental, ecological, social 
and economic) be considered, as appropriate, through the planning 
process.

    Question 12. Section 1610.3-2(b)(4)(ii) of the proposed rule, 
Consistency Review: (Page 9705 of the Federal Register Notice) is 
proposed to read that ``The Director will consider the Governor(s)' 
comments in rendering a final decision. The Director will notify the 
Governor(s) in writing of his or her decision regarding the Governor's 
appeal. The BLM will notify the public of this decision and make the 
written decision available to the public.'' In Planning 2.0, the BLM 
proposes to eliminate existing rule language requiring the BLM Director 
to accept the recommendations of the Governor(s) if the BLM Director 
determines that the recommendations ``provide for a reasonable balance 
between the national interest and the state's interest.'' Why is the 
BLM no longer seeking to reach a reasonable balance between the 
national interests and state or local interests?

    Answer. The rule states that the BLM Director will consider the 
Governor(s)' appeal and the consistency requirements of this section of 
the rule in rendering a decision. The proposed change would reflect 
that the BLM Director must consider many factors when rendering a 
decision, including whether the Governor(s)' recommendations are 
consistent with Federal laws and regulations applicable to public 
lands, such as FLPMA.

    Question 13. The BLM proposes, in the planning assessment, to no 
longer consider ``the estimated sustained levels of the various goods, 
services and uses that may be attained.'' Instead, the BLM proposes to 
identify ``the various goods and services that people obtain from the 
planning area, including ecological services.''
    Why is the BLM proposing to change the original purpose and intent 
of this section to measure the impact of BLM decisions against the 
objectively quantifiable value of tangible goods and services, such as 
minerals or timber; that could be lost as a result of the decision and 
instead throw in the concept of ecological services, which cannot be 
objectively or accurately quantified for comparison?

    Answer. Goods and services include a range of values and human uses 
of the resources provided by and derived from management of the public 
lands. However, determining the value of these goods and services is 
difficult and affected by many factors including markets, the state of 
the economy, and other variables. Benefits resulting from proper 
management of ecosystems, such as flood control from intact wetlands 
and carbon sequestration from healthy forests are referred to as 
``ecological services.'' Some commodities sold in markets, for example, 
forest products resulting from timber production, are more easily 
valued. Others, such as wetlands protection and carbon sequestration, 
are not commonly valued in the marketplace but do provide tangible 
benefits and valuable services (e.g., flood control); they provide non-
market values. The BLM does have guidance based on established 
practices for estimating non-market values for ecosystem goods and 
services for the purposes of comparison. The language included in the 
rule is simply intended to ensure that all goods and services derived 
from the proper management of public land resources are identified in 
the planning process, beginning with the planning assessment.

    Question 14. Why is the BLM proposing to remove from the Planning 
Assessment a requirement for the BLM to analyze ``specific requirements 
and constraints to achieve consistency with policies, plans and 
programs of other Federal agencies, state and local government agencies 
and Indian tribes? ''

    Answer. The BLM did propose removing this provision of the plan 
assessment because at that early stage in the planning process, the BLM 
usually does not have sufficient information to identify ``requirements 
and constraints'' related to consistency, as the BLM would not yet have 
developed management alternatives for the area. Under the final rule, 
the BLM would require that as part of the planning assessment for an 
individual planning effort, the BLM identify relevant national, 
regional or local policies, guidance strategies or plans; in response 
to public comment, the final rule includes language identifying that 
constraints for achieving consistency would be addressed as planning 
issues during the scoping process.

    Question 15. Section 1610.4-4 of the existing rule directs the BLM 
Field Manager to analyze the management situation. The manager is to 
keep multiple use principles in mind as alternatives are formed. As 
part of the AMS process, the manager is to consider the degree of local 
dependence on resources from public lands.
    The proposed rules do away with the Analysis of the Management 
Situation and replace this step with the Planning Assessment. However, 
in the Planning Assessment, the focus of the assessment shifts from the 
concept of multiple use and resource development on public lands to 
preserving ``ecological services.''
    How is this shift in focus consistent with congressional intent 
when FLPMA came into effect in 1976?

    Answer. In the planning assessment process in the rule, rather than 
consider the ``degree of local dependence on resources from public 
lands'' (from existing Sec. 1610.4(g)), the BLM would instead consider 
``the degree of local, regional, national, or international importance 
of these goods, services, and uses'' (from proposed 
Sec. 1610.4(d)(7)(i)). ``Resources'' would be replaced with ``goods, 
services, and uses'' to provide a more precise explanation of what the 
BLM considers with regard to those resources. The BLM believes that the 
use of more precise terminology in the regulations will improve 
understanding of this provision. The BLM does not intend for this 
change to change the meaning of this provision. The language in the 
rule is simply intended to ensure that all goods and services derived 
from the proper management of public lands and resources are identified 
and considered in the planning process.

    Question 16. During one of the recent Webinars associated with the 
planning rules; a question was posed whether one has to be a U.S. 
citizen to comment on the proposed rules. The answer was no; that 
anyone could comment. During a recent RMP process in Utah, there were 
approximately 68,000 comments received by the BLM; with approximately 
11,000 of those comments being from outside of the country. Is the BLM 
willing to include provisions in the proposed rule to somehow give 
greater credence to the views of local elected officials and 
stakeholders over the views of those with no direct connection to the 
land other than responding to a request to submit a form letter on 
behalf of a special interest group?

    Answer. Under the rule, and consistent with the previous planning 
rule, local, state, tribal, and Federal governments are afforded 
special consideration not afforded to other general members of the 
public such as foreign nationals. Specifically under the rule, to the 
maximum extent practical and consistent with FLPMA and other Federal 
laws, BLM Resource Management Plans must be consistent with those of 
local, state, Federal and tribal governments.

                  Questions Submitted by Rep. Dingell
    Question 1. The Bureau of Land Management's Planning 2.0 initiative 
is an impressive undertaking. The proposed regulations will affect 
every facet of BLM land use planning and management. The U.S. Forest 
Service promulgated a similar rule in 2012, analyzing the many, 
significant environmental, economic and effects of the rule in more 
than 1,300 pages of environmental impact statements under the National 
Environmental Policy Act. How did the BLM decide that its equally 
expansive rule was excluded from review under NEPA? Would alternative 
analysis under NEPA have helped contribute to stronger proposed and 
final regulations?

    Answer. As described in the preliminary categorical exclusion 
documentation for the proposed rule, the Department of the Interior 
categorical exclusion at 43 CFR Sec. 46.210 is applicable to this 
action. The existing planning rule is entirely procedural in character 
and the amendment of this rule is entirely procedural. The amendment 
does not develop or amend any land use plans; any future revisions, 
plans or amendments will be subject to NEPA analysis, including 
appropriate public involvement, before any decision affecting the 
management of the public lands is made. Further, there are no 
extraordinary circumstances that would preclude the use of a 
categorical exclusion. For this reason, the BLM's reliance upon the DOI 
categorical exclusion is appropriate. The BLM planning regulations are 
distinguishable from the 2012 Forest Service planning rule, and the 
U.S. Department of Agriculture and the Department of the Interior have 
different categorical exclusions.

    Question 2. In promulgating its similar planning rule, the Forest 
Service also heeded direction in the Endangered Species Act to manage 
public lands and resources in a manner that contributes to conservation 
and recovery of threatened and endangered species and specifically 
referenced the ESA in its rule, and even consulted with the Fish and 
Wildlife Service and the National Marine Fisheries Service on the 
potential of its regulation to support listed species conservation. By 
comparison, neither the BLM's proposed rule nor the agency's 
description of it even mentions the ESA. How does the agency intend to 
improve the final regulation to ensure that it achieves congressional 
mandates in the ESA to protect and recover listed plants and animals?

    Answer. While not specifically addressed in the rule, the BLM must 
comply with the Endangered Species Act, including Section 7 
consultation requirements for actions that may affect a federally 
listed species or designated critical habitat. Additionally, the BLM 
planning regulations establish the procedures for developing and 
amending resource management plans and do not approve any land use 
plans or plan amendment or authorize any particular projects. The BLM 
will continue to comply with the ESA when it completes future 
individual planning efforts and will continue to address listed species 
during these future planning efforts. For example, under the procedures 
for plan development and amendment in the proposed rule, during future 
planning, the BLM would identify areas of potential importance through 
the identification of potential Areas of Critical Environmental Concern 
(ACECs) and other means such as habitat for federally-listed threatened 
and endangered species.

    Question 3. Was there anything else you wanted to say or respond to 
from the hearing?

    Answer. Planning 2.0 was developed to respond to concerns and 
criticisms of the existing planning process (which had not been revised 
for nearly three decades); to respond to state, local, and other 
stakeholder and public concerns; and to make the BLM planning process 
more efficient, cost-effective, and relevant to the issues affecting 
public land management today. The rule will allow the BLM to react more 
quickly to amend land use plans to better address local needs and 
changing land and resource conditions and ensure that the BLM can meet 
its mandate to manage the public lands on the basis of multiple-use and 
sustained yield, through a more open, transparent, and inclusive 
planning process.

                   Questions Submitted by Rep. Polis
    Question 1. Mr. Lyons, in your view, how does Planning 2.0 increase 
the transparency of the BLM land use planning process? How does 
Planning 2.0 help to ensure that the draft RMP more closely meets the 
expectations of stakeholders? There is no doubt that local input and 
concerns are highly important when planning for BLM-managed lands. 
Would the BLM's proposed rule take away these special participation 
opportunities from states and local governments?

    Answer. The rule increases the transparency of the land use 
planning process by establishing more frequent check-ins with 
stakeholders. These frequent check-ins provide stakeholders the 
opportunity to review preliminary documents before they are formalized 
and provides the BLM an opportunity to engage in ongoing dialogue with 
stakeholders to better understand their needs, concerns, and 
expectations. By working closely with stakeholders throughout the 
duration of the planning process, the BLM will be better able to 
respond to stakeholders.

    Question 2. Mr. Lyons, help the committee to understand how 
`landscape level' planning allows land managers to better tackle 
pressing natural resource concerns at an appropriate scale?

    Answer. The rule provides for an open and transparent process; 
supports assessment and management at appropriate scales; supports the 
use of the best available scientific information in planning; and 
applies principles of adaptive management. Key to this process is 
developing land use plans at a scale that is based on resource 
management concerns and the issues being addressed. We saw this with 
sage grouse, whose range covers 11 states and requires a coordinated, 
comprehensive, science-based conservation strategy as we developed 
leading to a ``not warranted'' decision by the U.S. Fish and Wildlife 
Service. Similarly, dealing with invasive species like cheatgrass 
across a larger landscape is essential for reducing the risk of 
rangeland fire across the Great Basin where it constitutes a 
significant threat to ranchers and rural communities.

    Question 3. Mr. Lyons, the agency has certainly received a lot of 
feedback from stakeholders on the proposal; what is the agency's plan 
for incorporating that feedback to help ensure that the final rule 
works best for local governments, the public, the agency itself, and 
the natural resources the agency manages?

    Answer. The BLM received over 400 unique comments from members of 
the public, state and local governments, other Federal agencies, and 
tribal governments. We analyzed those comments and considered all 
suggestions made. As part of the rulemaking effort, we will publish a 
response to all substantive comments, along with the rationale for why 
we did or did not incorporate suggested changes.

    Question 4. Mr. Lyons, we know that things like wildlife, rivers 
and people do not just stop at state and field office boundaries but 
migrate or otherwise span political boundaries. I'm glad to hear that 
the BLM is seriously thinking about common-sense ways to plan for use 
and conservation of our public lands rather than rely on political 
boundaries.

    Question 4a. Can these planning ``landscapes'' be either larger or 
smaller areas as needed?

    Answer. The rule permits BLM land managers to determine the most 
appropriate planning area given the issues and resources that are 
affected. That is the most efficacious way of developing plans and 
involving all jurisdictions that may be affected by management 
decisions on that landscape. Through an open and transparent process, 
using the best available scientific information, and informed by a 
robust planning assessment, the BLM can determine the most appropriate 
planning area for any given set of management issues. While appropriate 
planning areas may be larger or smaller than the typical field-office 
boundary, in considering the resources needed to conduct effective land 
use planning, it is likely that the BLM will more often conduct 
planning at a field office or larger scale.

    Question 4b. How will local expertise and input be integrated into 
landscape level planning?


    Answer. Under the rule, the BLM would add several new opportunities 
for the interested citizens and stakeholders to engage with the BLM 
during the planning process, including development of a (1) planning 
assessment; (2) preliminary statement of purpose and need; (3) 
preliminary range of alternatives; (4) preliminary rationale for 
alternatives; and (5) preliminary basis for analysis. At each of these 
stages, individuals with local expertise would be invited to provide 
input either as a cooperating agency (if an eligible governmental 
entity) or through public involvement opportunities during these stages 
of the planning process.

    Question 4c. Can you discuss some of the ways that this landscape 
level planning would benefit the public lands?


    Answer. The BLM manages a diverse range of natural resources, which 
occur at an equally diverse range of scales, and it collaborates with a 
diversity of partners, stakeholders and communities who work at 
different scales. For these reasons, the BLM planning process must 
enable consideration of issues and opportunities at multiple scales and 
across traditional management boundaries. Some of the management 
concerns that may benefit from a landscape approach to decisionmaking 
include those that cross traditional administrative boundaries, such as 
wildfire, wildlife, water resources, energy development, and 
transmission.

    Question 4d. And how it would provide for more meaningful input 
from stakeholders invested in the management of public lands?

    Answer. The rule increases opportunities for meaningful public 
involvement in several ways. First, during the planning assessment, the 
BLM must gather and consider public input before initiating formal 
planning. This provides local citizens and stakeholders with the 
opportunity to engage at the very beginning of the planning process--
before issues are identified or alternatives are considered. The rule 
also establishes new opportunities for stakeholders to review 
preliminary planning documents prior to the formal public comment 
period for a draft plan or draft amendment. These new steps afford the 
public additional opportunities to track the BLM planning process as it 
develops and would provide them with more time to review preliminary 
documents before drafts are issued. The BLM believes that these new 
opportunities will promote meaningful involvement in the planning 
process by increasing the transparency of the process.

                                 ______
                                 

    Mr. Gohmert. Thank you, Mr. Lyons.
    At this time, Ms. Clarke, you are recognized for 5 minutes.

   STATEMENT OF KATHLEEN CLARKE, DIRECTOR, UTAH PUBLIC LANDS 
        POLICY COORDINATING OFFICE, SALT LAKE CITY, UTAH

    Ms. Clarke. Chairman Bishop, Chairman Gohmert, Ranking 
Member Dingell, and members of the subcommittee, I am honored 
to be here today and want to thank you for this opportunity. I 
am here today to voice my strong opposition to BLM Planning 
2.0. I come to my position based on my 30-plus years of 
experience with public land issues, and also having served as 
the Director of the BLM for 5 years.
    It is my sincere belief and my experience that BLM planning 
is most effective and durable when the BLM works side by side 
with counties and states to understand land management 
challenges and opportunities.
    When I was at the BLM, I felt so strongly about this 
partnership that I made a point of creating a BLM rule that 
mandates a rigorous, cooperative engagement with state and 
county officials. State agencies bring data, expertise, and a 
history with the land that BLM does not have. In my opinion, 
BLM Planning 2.0 will fundamentally undermine the role of state 
and county governments in their planning.
    Although the official position of the BLM and the 
Department is that the planning rule will not impact the BLM's 
relationships with cooperators, in practice, I believe that the 
rule, as proposed, will significantly marginalize the role of 
cooperators and dramatically diminish their influence.
    The BLM proposes a shift in planning philosophy toward 
landscape scale management. Planning areas will not be fixed as 
they are now, but may be arbitrarily designed by BLM officials. 
For example, such a policy, if adopted, could lead to a 
Colorado plateau resource management plan that would include 
three or four different states or portions of those states.

    This sort of multi-state management will force the BLM to 
juggle consistency with several different policy positions of 
multiple governors. I believe this proposal will prevent the 
kind of close coordination that was envisioned by Congress when 
they enacted FLPMA; and the biggest losers from this proposal 
will be state governments and the landscapes themselves, which 
require highly localized and fine-tuned management.

    Right now, I have a very strong relationship with the BLM 
Director acting in Utah, Jenna Whitlock. It is troublesome to 
me that BLM Planning 2.0 would diminish her decisionmaking 
authority, or at least it could, because it creates some 
ambiguous role for a deciding official, which does not have to 
be someone who has worked in or is familiar with the state.

    The BLM also proposes a similar dilution of the role of its 
field managers, which right now are closely aligned with county 
commissions. They work together as partners, not as 
adversaries. This vague shift in policy power could possibly 
bring someone in to make decisions that has no experience with 
the land and does not understand the culture or the land of the 
state of Utah.

    Another very troubling matter is this planning assessment 
business. The problem is that the BLM does not propose any 
additional coordination with state or elected officials. Under 
the proposed rule, state and local governments would have the 
very same role during the planning assessment as environmental 
organizations, special interest groups, and the general public. 
If unelected special interest groups have an equal seat at the 
table during the planning assessment, the role of state and 
local government as cooperators will inherently be diminished. 
Key decisions and directions will likely have been set before 
cooperating agencies ever have a chance to sit down with the 
BLM and work through their particular concerns.

    The BLM says it wants to better understand public values, 
but it is interesting that it then chooses to ignore the fact 
that the citizens within the given jurisdiction have elected 
their leaders to faithfully represent their values and protect 
their interests. They are the voices of the public opinion and 
the public interest. They are elected by a majority of their 
voters to comply with both the letter and the spirit of the 
law. I think BLM needs to modify this significantly.

    I believe this has the potential to undo many good 
relationships which are so important in the West, and we would 
ask the BLM to withdraw the rule and to work closely with 
cooperators if they feel, indeed, a need to modify it. Thank 
you.

    [The prepared statement of Ms. Clarke follows:]
  Prepared Statement of Kathleen Clarke, Director, Utah Public Lands 
                       Policy Coordinating Office
    Chairman Bishop, Chairman Gohmert, Ranking Member Dingell, and 
members of the subcommittee, I am honored to be here and thank you for 
this opportunity.
    I am here today to voice my strong opposition to BLM Planning 2.0. 
It is my experience that BLM planning is most effective and durable 
when the BLM works side by side with states and counties to understand 
land management challenges and opportunities. When I was at the BLM, I 
felt so strongly about this that we developed a rule that mandates a 
process for rigorous cooperative engagement with state and county 
officials. State agencies bring data, expertise, and a history with the 
land that the BLM doesn't have. County commissioners are able to 
articulate the interests of the people they have been elected to 
represent. While the system is not perfect, Utah has many examples of 
truly effective cooperation between the BLM and state and local 
governments that has resulted in workable compromises and practical 
solutions that are good for both the land and the people.
    In my opinion BLM Planning 2.0 will fundamentally undermine the 
role of state and county governments in BLM planning. Although the 
official position of the BLM is that the planning rule will not impact 
the BLM's relationships with cooperating agencies, in practice, I 
believe that the rule as proposed will significantly marginalize the 
role of cooperators and will dramatically diminish their influence. Let 
me share with you a few examples.
    The BLM proposes a shift in planning philosophy toward what it 
calls ``landscape scale management.'' This is planning on a large scale 
that may extend across state borders. Planning areas will not be fixed 
as they are now, but will be established arbitrarily by BLM officials. 
For example, such a policy, if adopted, could very well lead to a Great 
Basin Resource Management Plan that includes portions of both Utah and 
Nevada. Or it could lead to a Colorado Plateau Resource Management Plan 
that includes three or four different states. This sort of multi-state 
management will force the BLM to juggle consistency with several 
different state land use plans. It will have to consider and respond to 
different policy positions of multiple governors. I believe that this 
proposal for multi-state landscape management will prevent the kind of 
close coordination between an individual state and the BLM that 
Congress envisioned in FLPMA. The biggest losers from this proposal 
will be state governments and the actual landscapes, which require 
highly localized and fine-tuned management.
    Utah possesses an incredibly diverse array of small, unique 
landscapes. They need specialized attention from the BLM. To be 
successful, land management must offer a plan for stewardship, 
monitoring, and funding for land treatments. Effective management plans 
require local input and expertise, not one-size-fits-all directives for 
large multi-state areas. BLM planning should encourage greater 
specification for small landscapes contained within a single state. 
Without the engagement and buy-in of state and county elected officials 
in BLM planning, support for BLM plans will be diminished and success 
compromised.
    BLM 2.0 also proposes to weaken the role of its own State Directors 
and Field Office Mangers. Currently, the Utah BLM Director has broad 
decisionmaking authority within the state, which allows for strong 
partnerships with state elected officials and their representatives. I 
have a very positive relationship with the BLM's Acting State Director 
in Utah, Jenna Whitlock. I see her often and we communicate regularly. 
This close association has allowed both of us to understand the 
different sides of a problem, make compromises, and resolve difficult 
issues resulting in win-win solutions. Unfortunately, BLM Planning 2.0 
could strip BLM State Directors of much of their decisionmaking 
authority, putting it in the hands of what the BLM calls ``deciding 
officials.'' These deciders could be anyone, such as a bureaucrat in 
Washington, DC or some other third party brought in for a specific land 
use plan. There appears to be no requirement that the deciding official 
live in Utah or have real life experience with Utah lands or culture. 
The relationship of trust that currently exists between BLM state 
directors and state elected officials will be fractured as more BLM 
decision are made by BLM with employees with no ties to affected 
states.
    The BLM proposes a similar dilution to the role of its field office 
managers. Currently, the boundaries of most BLM field offices closely 
align with county borders. This facilitates effective cooperation 
between BLM field office managers and county commissioners. I know 
county commissioners who consider local BLM field office managers and 
staff to be personal friends. They meet often and resolve issues as 
partners, not as adversaries. But under BLM Planning 2.0, field office 
managers may be relegated to the side-lines, making room for what the 
BLM calls ``responsible officials.'' This vague policy could shift 
decisionmaking power to far-removed BLM employees who have no history 
with the planning area and will never experience the real-world impact 
of his or her decisionmaking. The BLM should withdraw this proposal so 
as to not impair these critical relationships between state directors, 
field office managers, and elected state and county officials.
    Another very troubling matter proposed in BLM 2.0 is the 
introduction of a new step in the agency's planning process. They call 
this step the ``Planning Assessment.'' The BLM purports that this 
``planning assessment'' will ``help the BLM better understand public 
values.'' The ``planning assessment'' will include open public meetings 
at the very beginning of a planning process. The problem is that the 
BLM doesn't propose any additional coordination with elected state or 
county officials. Under the proposed rule, state and local governments 
would have the same role during the ``planning assessment'' as 
environmental organizations, special interest groups, and the general 
public. If unelected special interest groups have an equal seat at the 
table during the ``planning assessment,'' the role of state and local 
governments as cooperators will inherently be diminished. Key decisions 
and direction will likely have already been set before cooperating 
agencies ever have a chance to meet privately with the BLM.
    The BLM says that it wants to better understand public values, but 
chooses to ignore the fact that the citizens within a given 
jurisdiction have elected their leaders to faithfully represent their 
values and protect their interests. Elected officials rightly represent 
the values of the majority of voters in their jurisdiction, not the 
values of the loudest, most well-funded interest groups. To comply with 
both the letter and the spirit of FLPMA and NEPA, the BLM must provide 
for formal coordination with state and local governments from the very 
beginning of its planning process.
    FLPMA explicitly requires that BLM plans be consistent with local 
land use plans, policies, and programs. Unfortunately, the BLM's 
proposed rule requires the BLM to be consistent only with ``official 
approved or adopted land use plans'' of state and local governments, 
and allows the BLM to disregard land use ``policies and programs'' of 
state and local governments. This proposal is illegal as it is a clear 
violation of FLPMA. Not all counties have ``officially approved or 
adopted land use plans,'' and the BLM cannot ignore the consistency 
requirements in FLPMA merely because a county has a land use 
``program'' or ``policy'' instead of an official ``plan.'' Utah is 
rapidly working to create official land use plans in all of its 
counties, but this proposal could do great damage to rural counties all 
across the West that lack the resources to create official land use 
plans.
                               conclusion
    BLM Planning 2.0 has the potential to undue much of what currently 
works in BLM planning, and opens the door to a host of other problems 
and conflicts. We ask that the BLM withdraw the proposed rule and work 
with their legally identified cooperating agencies to consider a new 
rule that enhances state and Federal cooperation and trust.

    Thank you.

                                 ______
                                 

Questions Submitted for the Record by Rep. Gohmert to Kathleen Clarke, 
         Director, Utah Public Lands Policy Coordinating Office
    Question 1. During the hearing I asked ``if you have specific 
instances that you can find where the rules have worked a hardship, 
then let us know those. Please send us those in the days ahead,'' in 
regards to rules promulgated by the BLM.
    Please list specific instances where rules promulgated by the BLM 
have led to compliance hardships for either state, local, or municipal 
officials.

    Answer. It was a privilege to testify before the members on the 
``State's Perspectives on BLM's Draft Planning 2.0 Rule.'' As a follow 
up to my testimony, you had asked that we provide specific examples of 
BLM's regulations that have caused a hardship to the state of Utah 
(State). I have chosen a few specific examples that are discussed in 
detail below. However, there are multiple examples of practices and 
regulations enacted by the BLM's Washington, DC office that have 
harmed, and will continue to harm, Utah's wonderful economy and 
lifestyle. The practices identified below, however, highlight the 
ongoing practice of the BLM to usurp local control of resources and 
authority, unlawfully and unilateral ignore congressional mandates of 
multiple-use and sustained yield. They continue to illegally implement 
practices that result in a preservation of resources, in lieu of 
allowing for use and conservation of resources, as intended by 
Congress. If you have any questions with regards to my testimony, or if 
you would like me to further highlight other BLM rules, regulations, 
and practices that harm the State and our citizens, I will provide such 
upon request.
I. Sage-grouse Land Use Plans
    In 2015, the BLM developed land use plans (Land Use Plans) to 
manage the greater sage-grouse in Utah, and across the West. The Land 
Use Plans, developed and finalized by the BLM in September, 2015, have 
and will continue to cause unnecessary regulatory burden and hardship 
on the State. The Lands Use Plans have resulted in economic 
uncertainty, administrative delays, and setbacks, and utilize tools and 
ideas that are not based on local and relevant scientific research and 
known management practices.
    Since 2006, Utah has invested over $50 million dollars into greater 
sage-grouse conservation, management and research. In 2013, after much 
collaboration with stakeholders, including the BLM, the State approved 
a revised comprehensive conservation plan for sage-grouse (State Plan). 
The State Plan protects core sage-grouse habitat, known as Sage-grouse 
Management Areas (SGMA), on over 7.5 million acres across the State. 
The goal of the State Plan is to conserve 90 percent of the State's 
greater sage-grouse habitat and approximately 94 percent of the 
population. The State Plan builds on the legacy of utilizing state 
biologists, university researchers, land managers, local working groups 
and Federal partnerships to manage sage-grouse. To date, the State has 
enhanced and restored more than 620,000 acres of sage-grouse habitat, 
protected over 25,000 acres of habitat using conservation easements and 
land transfers since 2013, and most importantly, has increased sage-
grouse populations by at least 56 percent.
    The economic impacts to the State, from the Land Use Plans, are 
very clear. The BLM's Land Use Plans specifically regulate over 2.5 
million acres in Utah for a species that is not federally protected 
under the Endangered Species Act. Currently, almost $3 billion dollars' 
worth of economic activity occurs annually in Utah within sage-grouse 
habitat. Over 13,071 Utahans depend upon energy development or resource 
use and extraction on public and private lands in sage-grouse range as 
their livelihood. The work by those Utahns results in approximately 
$830.9 million in earnings. Coal, oil, natural gas, renewable energy 
and other mining activities within Utah's sage-grouse range account for 
$224 million in earnings annually. Similarly, livestock production on 
private, state and Federal lands in sage-grouse range accounts for 
approximately $52.9 million in earnings. The financial harm and burden 
resulting from the Land Use Plans will ultimately harm Utah's local 
economies. Just a few of the most noticeable economic impacts from the 
Land Use Plans include:

    Limited oil, gas, and mining on Federal lands. The BLM's Land Use 
Plans do not allow for any new oil, gas, or mining operations to occur 
on Federal lands within areas designated as Sage-brush Focal Areas. 
However, most of these Sage-brush Focal areas do not actually have 
sage-grouse populations. In areas designated as Priority Habitat, new 
development of oil, gas and mining resources is severely limited. For 
example, the BLM has created an arbitrary disturbance cap which limits 
disturbance in areas designated as Priority Habitat from oil, gas, 
mining and other uses into a 3 percent cap. When the cap is met, no new 
disturbances will be allowed. Further, if the BLM leases any new oil 
and gas mineral leases in Priority Habitat, the development will be 
subject to no surface occupancy (NSO) stipulations, with limited 
exceptions. Similarly, any development in areas known as General 
Habitat will be modified with specific mandates and measures, including 
mandates such as NSO, and controlled surface use and timing limitations 
will be implemented to further limit disturbance.

    Wind Energy Development is severely restricted. The BLM will not 
allow any new wind energy development projects to be permitted or occur 
in Sagebrush Focal Areas or Priority Habitat. Limited wind energy 
development in General Habitat may still be authorized.

    New solar Energy development will become non-existent on Federal 
lands. The BLM has decided to exclude new solar development on any 
areas designated as sage-grouse habitat on Federal lands. The BLM has 
stated that solar energy will not be permitted in any sage-grouse 
habitat on Federal lands in all Sage-brush Focal Areas.

    Land Use Plans will result in the modification or termination of 
certain grazing permits on Federal land. The BLM and the Forest Service 
are currently re-evaluating every grazing allotment on BLM lands and 
reviewing the potential to modify the terms on 567 grazing permits in 
Utah (389 BLM and 178 USFS), encompassing over 5 million acres.

    Constraints on new recreational development. The Land Use Plans 
state that no new recreation facilities will be developed in Sagebrush 
Focal Areas or priority habitat. Further, the plans note that only 
minimal new recreational development will occur in general habitat but 
only after receiving special permit to recreate.

    It is clear that the practices identified above, are harmful to the 
State's economy, especially in a state where over 50 percent of the 
land is under Federal management and control. These Land Use Plans have 
created economic uncertainty and hardships on the State and violate the 
multiple-use mandates identified and embraced in FLPMA.
    In addition, the plans have created huge administrative delays and 
burdens. The local BLM field offices have been unable to take action or 
make decisions because they are waiting on top-down direction from 
Washington, DC. The Land Use Plans are complicated, create a new layer 
of bureaucracy, and instruct BLM employees with jurisdiction over areas 
within sage-grouse habitat to prioritize their time, efforts, and 
budgets on matters relating to sage-grouse.
    In conclusion, the Land Use Plans for sage-grouse are a prime 
example of unnecessary and burdensome regulations being developed and 
implemented by the BLM. The BLM needs to adopt and embrace the Utah's 
Plan for the Conservation of Greater Sage-grouse. The State Plan has 
worked and will continue to work to conserve sage-grouse.
II. Wild Horse and Burro
    The BLM's purposeful failure to manage wild horses and burros in 
Utah is a harming Utah's rangelands, wildlife and water resources and 
impacting livestock producers throughout the state. Currently there are 
an estimated 5,440 wild horses and 400 burros in Utah. The BLM's 
failure to remove excess horses in Utah has left us with nearly three 
times as many horses as should be on its lands.\1\ The BLM needs to 
take action to manage horses at the appropriate levels which includes 
removing horses, when necessary, to protects Utah's ecological 
resources.
---------------------------------------------------------------------------
    \1\ See News Release No. WO2016, Wild Horses and Burros on Public 
Rangelands Now 2.5 Times Greater than 1971 when Protection Law was 
Passed (May 11, 2016).
---------------------------------------------------------------------------
    The current levels of wild horses and burros on Utah's rangelands 
is not ecologically sustainable. By continuing to allow horses and 
burros to exceed sustainable levels, the BLM is placing in jeopardy the 
future of wildlife, rangelands, and livestock operations in Utah, not 
to mention harming the long-term survival of the horses and burros 
themselves. The focus of the BLM Wild Horse and Burro program should 
revert to its original purpose and stated goal of achieving appropriate 
management levels in Utah. Last year the BLM only removed 123 excess 
horses from the range. The BLM's ongoing practice of not removing 
horses is creating economic hardship and harmful ecological impacts 
that may not be reversed for decades.
    Direct removal of horses and burros from impacted regions will aid 
in maintaining the minimum management levels being achieved while 
simultaneously reducing their impact on the supporting ecosystem. The 
BLM's current Budget Proposal seeks to only remove a minimal amount of 
wild horses and burros from Utah's rangelands. We are concerned with 
the lack of urgency of the BLM in managing their wild horse and burro 
populations. With a growing level of conflict and the inaction by the 
BLM to meet their management obligations and bring horse and burro 
numbers to appropriate management levels, the State has asked for 
better management and removal of wild horses. Rather than tackle this 
difficult challenge, the BLM has chosen to put the burden of wild horse 
management on the livestock producers and tax payers within the State. 
This practice is unacceptable and must be changed.
III. Coal Leasing Moratorium
    The BLM's recent actions to stop new coal development on Federal 
lands threatens the viability of several major coal mine expansion 
projects in Utah. The BLM, under the direction of the Secretary of the 
Interior, Sally Jewell, and in concert with President Obama's Executive 
Order is currently reviewing the Federal coal program and placing a 
long-term moratorium on new coal leasing and development on public 
lands while the review is underway.
    The BLM's coal leasing moratorium is a rushed and uninformed 
political decision that threatens Utah's coal industry and the many 
benefits that industry provides. Coal generates 76 percent of Utah's 
electricity and helps employ more than 45,000 men and women across the 
state. In Carbon County alone, 8 out of 10 jobs in the county of 17,000 
come from mining and power plants. In the event coal mines in Carbon 
County are closed, thousands of families will be displaced and without 
work. Similarly, hundreds of people lost jobs in Carbon and Emery 
County last year when a coal plant and coal mine closed due to, among 
other things, onerous Federal regulations.
    The Coal Moratorium has recently halted the expansion of a mine in 
southern Utah, near Alton. The mine's management worked together with 
the State and the BLM to identify ways that coal mining could continue 
while mitigating for environmental impacts through the use of 
compensatory mitigation tools. However, after working for months on a 
mitigation plan with the State and BLM, and submitting an emergency 
application to expand the mine during the Coal Moratorium, the 
application was denied. This failure to allow needed responsible 
expansion is unnecessary and another prime example of ridiculous and 
burdensome regulations harming the state of Utah and its citizens.
IV. ``Wild Lands''--Unlawful Designation of Wilderness
    An additional practice that has created a hardship for the State is 
the BLM's designation of ``wild lands'' within the State. On December 
22, 2010, Ken Salazar issued Secretarial Order 3310 (the BLM issued its 
manuals shortly thereafter). Order 3310 created a new public land 
designation--``wild lands'' that superseded existing land use 
management plans and created additional steps in the implementation of 
land management decisions. In essence, the BLM began managing ``wild 
lands'' as ``de facto'' wilderness in violation of the BLM's rulemaking 
procedures, Federal laws, and wilderness study areas designation 
process.
    Under ``wild lands,'' at least 6 millions of acres in Utah could be 
set aside, preserved, and managed as ``de facto'' wilderness. The 
ongoing preservation mentality, coupled with the failure to allow for 
multiple-use, development, and access into areas designated as ``wild 
lands'' is a burden on the state. Further, the unilateral action to 
designate lands as de facto wilderness, creates a lack of trust, 
displaces the roles of state and local government and displaces 
necessary economic development and utilization of precious resources 
within the State. Due to the hardships and issues surrounding the 
``wild lands'' designations, the State filed suit in Federal court 
challenging the BLM's actions.
    Please direct any other written questions regarding this 
correspondence to the Public Lands Policy Coordinating Office, or call 
to discuss any questions or concerns.

                                 ______
                                 

    Mr. Gohmert. Thank you, Ms. Clarke. At this time, the Chair 
recognizes the Ranking Member, Mrs. Dingell, for 5 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman, for your 
extraordinary courtesy. You are a true gentleman, and I love 
working with you.
    So, enough of that this morning. Can I ask unanimous 
consent to submit for the record a letter in support of 
Planning 2.0 signed by Trout Unlimited, the Teddy Roosevelt 
Conservation Partnership, and the Rocky Mountain Regional 
Center?
    Mr. Gohmert. So ordered.
    Mrs. Dingell. Thank you.

    [The information follows:]

       Sportsmen for Responsible Energy Development

                                                       July 6, 2016

Hon. Neil Kornze, Director
Bureau of Land Management
1849 C Street NW
Washington, DC 20240

Re: Sportsmen Support for Planning 2.0

    Dear Director Kornze:

    Sportsmen for Responsible Energy Development (SFRED) is a coalition 
led by the Theodore Roosevelt Conservation Partnership, National 
Wildlife Federation and Trout Unlimited and is made up of more than 
1,500 businesses, organizations and individuals dedicated to advancing 
federal policy and practices that ensure responsible energy development 
on public lands. Our members have extensive experience engaging in the 
Bureau of Land Management's (BLM) Resource Management Plans (RMPs) 
across the West and we can affirm that the agency's current planning 
process needs to be modernized. We strongly support the BLM's approach 
to improve land use planning through Planning 2.0 and urge you to see 
the rulemaking process through to completion.
    Successful BLM land use planning includes early and frequent 
communication with the public. Under the current process, the public 
submits comments at the scoping period, those comments seem to 
disappear into the hands of the agency, and years later the BLM comes 
back with a proposed draft RMP. The public then submits comments on the 
draft RMP and the BLM disappears for another year or more before 
issuing a proposed final RMP. This long timeline with little 
communication from the agency makes it difficult for the public to 
remain interested in the process, and the lack of transparency makes 
people question how and if their comments are being used. The current 
BLM planning process is cumbersome and outdated, generating some of the 
frustration that people are voicing towards federal lands management in 
general.
    Planning 2.0 is focused on fixing these problems by increasing the 
transparency of the land use planning process by adding three new steps 
to land use planning: the envisioning process, plan assessment, and 
preliminary alternatives. These added steps would enable the public to 
provide information about the planning area before the agency begins 
considering how the lands should be managed and allow the public to 
consider the plan's direction and provide feedback before the draft RMP 
is formally proposed. These additional steps would help to maintain 
increased public interest in the planning process by providing a 
continuum of public involvement and help to ensure that the draft RMP 
more closely meets the expectations of stakeholders.
    These additional steps to the land use planning process should be 
supported by everyone who wishes to see the BLM work more closely with 
the public to develop land use plans that more closely meet the 
expectations of multiple stakeholder groups.
    We also support the BLM's proposal to revise RMPs at the landscape 
level, such as across multiple BLM Field Offices at one time. Right 
now, land use plans are created along artificial jurisdictional 
boundaries, often at the Field Office level of the BLM within a 
particular state. Land managers have come to recognize that because 
resources like mule deer and steelhead don't stop and turnaround at the 
BLM Field Office line, neither should land use plans. The BLM planning 
rule proposal to revise RMPs at the landscape level, such as across 
multiple BLM Field Offices at one time, makes common sense. By 
integrating landscape level planning into BLM management, the agency 
should be able to better care for fish and wildlife species that 
migrate and depend on different habitats throughout the year.
    We also believe that the BLM Planning 2.0 process creates an 
important opportunity to incorporate modern management tools into land 
use planning to better balance demands between multiple uses and to 
conserve important resources important for fish, wildlife and 
sportsmen. These tools include master leasing plans, migration corridor 
protection tools, and backcountry conservation areas.
    All of these changes would be achieved while simultaneously 
increasing the number of opportunities for cooperating agencies and 
decision makers to engage in the land use planning process. As you 
likely know, elected county officials located in all three areas where 
the BLM is implementing early adopter plans under the principles of 
Planning 2.0 (Missoula RMP, Eastern Colorado RMP, and Northwest 
California Integrated RMP) have endorsed the BLM's proposed changes to 
the planning process. This support demonstrates that the local elected 
officials who are closest to the rule understand its importance in 
better involving the public in land management decisions and improving 
the management of BLM lands across the West.
    Finally, we appreciate extensive public outreach and that has 
culminated in the draft rule. For over two years, the BLM has sought 
and received input from a multitude of diverse stakeholders, employing 
public meetings, webinars and taking public feedback. During the 
comment period for the draft rule, many valid points have been raised 
and we urge you to finalize the rule in a way that works for the 
general public, cooperating agencies, the agency itself and the public 
lands and resources that the BLM is charged with managing.
    While we have provided some specific recommendations for improving 
the planning rule in our formal comments, we believe Planning 2.0 is an 
important process that must move forward to completion. Thank you for 
your consideration of our request.

            Sincerely,

                                     Kathleen C. Zimmerman,
                                     Policy Director, Public Lands,
                                      National Wildlife Federation,
                                                  Denver, Colorado.

                                              Joel Webster,
                                Director, Center for Western Lands,
                       Theodore Roosevelt Conservation Partnership,
                                                    Washington, DC.

                                              Corey Fisher,
                              Senior Policy Director, Public Lands.
                                      National Wildlife Federation,
                                    Sportsmen Conservation Project,
                                                 Missoula, Montana.

                                 ______
                                 

    Mrs. Dingell. Mr. McAfee, I continue to be surprised by the 
criticism that adding more opportunities for public involvement 
to the planning process is a bad thing. I was really touched by 
your testimony this morning--specifically, we have heard that 
the voice of elected officials in the planning process should 
be elevated above the voices of Americans that want to provide 
direct feedback to BLM, the idea that elected officials 
represent the people and can therefore speak better for them on 
BLM planning issues. But you mentioned a specific situation in 
which the opposite was true. Your local elected representatives 
were refusing to even talk to BLM about a proposed master 
leasing plan in your area. Can you give us a brief explanation 
about why a master leasing plan was needed in this situation?
    Mr. McAfee. First, let me thank my colleagues for teaching 
me how to push the button.
    [Laughter.]
    Mr. McAfee. The management leasing plan process is one that 
is underway, right now in the very early stages, to determine 
whether or not there should be one. That is the major issue 
that is on the table. It has not been determined that there 
will be one. The reason for thinking about that is that the 
resource management plan for the areas of concern in Montezuma 
County are not specific enough to really protect some things 
that everybody agrees should be protected.
    For example, there is a world-class biking area, called 
Phil's World, very near Cortez that is contiguous to BLM land; 
it lies on BLM land, as well as private and state land. That 
could be under severe risk if we don't have some way to know 
what is coming down the road with leasing; and everybody, 
including the county commissioners, agree with that.
    The problem is that the county commissioners don't 
recognize that the resource management plan does not really 
protect it. They believe that that could be easily changed and, 
for reasons that I don't understand, they are opposed to an 
MLP. There has been a process to provide public input into that 
decisionmaking, and a lot of people have showed up, hundreds; 
and I believe that at this point in time the preponderance of 
input into that question is 10 to 1 in favor of doing an MLP. 
Yet, the commissioners really do not recognize that kind of 
public interest.
    That is why I believe that the process can be a lot better 
by listening to us, because we do our homework and we know what 
we need.
    Mrs. Dingell. We have just a short bit of time here; so, in 
your opinion, were your representatives doing their job of 
representing your voice when they refused to come to the table 
with BLM about the master leasing plan?
    Mr. McAfee. The simple answer is no, because they backed 
away from that and did not want to participate in it. One of 
the beginnings of the process was for them to select community 
members to be on the study group. They refused to select 
community members, and then community members decided to select 
themselves and applied to be on that.
    And suddenly, our commissioners discovered that they were 
being left aside, and so they did step up and start to select 
members for that. But that was a case where they thought, by 
withdrawing and not doing anything, they were going to be able 
to retain power. Instead, they lost power and they lost 
credibility.
    Mrs. Dingell. So, quickly summarizing, you are saying that 
your voice is currently not represented by your elected 
officials, and that they are actively advocating for things 
that you are saying that the majority of the community does not 
want. That sounds like a pretty good argument for maximizing 
the voice of everyday Americans in the BLM process.
    Do you think more public input in the master leasing plan 
process would have benefited this situation? How could the 
public have helped move this process along? And you have 30 
seconds.
    Mr. McAfee. The public has been engaged because of the fact 
that they have come to the steering committee with input. What 
that has done is caused the steering committee to have to back 
off, and they have not made a decision yet as to what they will 
recommend.
    So, it is clear to me that: (a) we were not represented by 
our county commissioners; and (b) at a higher level, at a 
different level, our input is being considered. I think that is 
a good example of how public input early on by concerned and 
knowledgeable citizens can make a difference.
    Mrs. Dingell. Thank you.
    Mr. Gohmert. Thank you. And we hope you will give Mr. 
Dingell our best. He turned 90 years old--was it yesterday?
    Mrs. Dingell. Tomorrow.
    Mr. Gohmert. Tomorrow. OK. Well, he is a distinguished 
gentleman in the best sense of the word.
    At this time, we recognize the Chair of the Full Committee, 
Mr. Bishop.
    The Chairman. Well, thank you, Mr. Chairman, even though 
you put me all the way down here; but thank you.
    Let me ask a couple questions, if I could--I can go in the 
other room, if you would like.
    First of all, Ms. Clarke, thank you for being here. I think 
adding to the resume is the fact that you were a former BLM 
director, so you understand this process and how these things 
work within the walls of the Interior Department, that great 
mausoleum to comradeship.
    Let me ask you a couple of questions. When FLPMA was 
actually passed, part of it said that it was there to preserve 
existing rights. That included grazing, leasing, water rights, 
yada yada. BLM was also there so that the plans would be 
consistent with state and local plans. That is the purpose of 
FLPMA, that was in the legislation. That provided for a 
coordination of land use inventory specifically with the 
agencies of state and local government.
    So, once again, I want to go--you touched on this in both 
your written and oral testimony--when I read BLM Planning 2.0, 
it appears that BLM is moving away from the rights granted to 
the state and local governments in the law. Under this new 
rule, how do you think BLM will honor their legal mandates to 
cooperate and coordinate with states, particularly the early 
public assessment phase?
    Ms. Clarke. I believe, during this early public assessment 
phase, state and local governments can participate, should they 
choose, but their voice will be marginalized. They have a right 
to sit as an elevated partner because they are sovereigns, and 
they should not be relegated to sharing a position among the 
crowd.
    Elected officials do represent the majority of the voices 
of those elected, although they may not represent the voices of 
the loudest, most well-funded special interest groups. I 
believe that this is stepping aside from the law, and it is not 
the first time we have seen the Administration take such a 
step.
    The Chairman. Thank you, I appreciate that. It is troubling 
for me. The Federal Government does own--I actually can't see 
how much time I have, so when I am close to it, hit me or 
something, will you?
    The Federal Government owns a third of all America, we know 
that. About 45 percent is BLM property. The sad part is almost 
none of that is east of Denver; it is all west of Denver. That 
means, even though the votes in Congress are east of Denver, 
everyone here east of Denver thinks public lands are all 
national parks, when we know the bulk of it is BLM property, 
and it is for those of us who actually have the fortunate 
opportunity of living in the West.
    What that simply means is, sometimes ideas can gain support 
when they actually do hurt people in the process. I think those 
of us here in the West have a specific interest, and that is 
why I appreciate the first two witnesses who represent the 
governors and commissioners who have concerns about what will 
actually happen in the West, even though we do not have the 
numerical majority here.
    And, it is the same thing here. Mr. McAfee, you talked 
about the commissioners in your area. I am assuming they were 
voted by the people.
    Mr. McAfee. Yes, sir.
    The Chairman. And I assume, if they don't like what they 
are doing, they could be unvoted by the people.
    Mr. McAfee. That might be the case.
    The Chairman. Well, I suggest you try that in the future. 
It is much more beneficial. We have 200 years of practice with 
that.
    By contrast, is anyone going to vote for Mr. Lyons? 
Absolutely not. I mean, so you get the free pass here. Whatever 
you decide to do, even if you think of something that I think 
is kind of crappy, you still get the free pass. It is through 
the elected officials that we have some kind of input for 
people, and that has to be why it was supposedly respected in 
FLPMA.
    So, let me go about this concept, this deciding official. 
Let me start with you, Mr. Ogsbury. If a plan does not cross 
state boundaries, should someone within the state be this 
deciding official?
    Mr. Ogsbury. Chairman Gohmert, Chairman Bishop, members of 
the committee, I think it is axiomatic that, to the extent 
decisions are removed from the states and moved to Washington 
or away from localities, that the influence and the authority 
of governors that is mandated under FLPMA would be----
    The Chairman. Just say yes or no, because I have 20 
seconds.
    Mr. Ogsbury. I am sorry, sir?
    The Chairman. You said it, fine.
    Mr. Ogsbury. Thank you.
    The Chairman. So, in those last 20 whatever seconds I have, 
because I see the yellow light up there, let me say this. The 
issue you always talked about is more input. The issue of 
getting more input is good; but it is who makes the decisions 
that is significant. This program significantly contracts who 
gets to make those decisions, centralizes who gets to make 
those decisions, minimizes elected input, and that is what 
everyone has been saying--almost everyone has been saying so 
far--except for Mr. Lyons. I hope you are listening to what 
everyone is saying, because that is the biggest flaw in this 
plan.
    I will be more than happy to go another round, but thank 
you. Sorry.
    Mr. Gohmert. Thank you very much.
    The Chairman. I am assuming I went over, because I see a 
red light. I have a block. I am sorry.
    Mr. Gohmert. No, actually I have a block, but you got a 
late start on your time, so it worked out fine.
    At this time, I recognize myself for 5 minutes. Of course, 
we know that there can be significant changes that occur 
between the original draft of a resource management plan and 
the finalization of the resource management plan. So, it is 
critical that the BLM hears from everyone who is a stakeholder. 
That especially includes governors that represent the whole 
state, even though their voice may be more in line with a 
majority, commissioners, county officials, and, certainly, the 
landowners themselves. That is why I am pleased with the 
representation we have here.
    Longer comment periods would seem to make that more likely. 
There was a hearing recently for the Senate Energy and Natural 
Resources Committee, and Director Kornze suggested that it 
makes sense to retain longer comment periods, although it did 
take some prodding from Senator Warren.
    Mr. Lyons, do you disagree with Director Kornze? Do you 
think we should have the longer comment periods, go back to 
those, or do you still insist that we should have shorter 
comment times?
    Mr. Lyons. No, Mr. Chairman, Director Kornze and I have had 
a conversation about that, and that is certainly something we 
are willing to revisit.
    I should explain that, in an attempt to limit the amount of 
time spent on planning in providing additional information or 
opportunities for input up front, I think an effort was made to 
cut back on some of those later comment periods. I think we 
need to rethink that, as you suggest.
    Mr. Gohmert. Well, thank you. I am very glad to hear you 
say that.
    Mr. Ogsbury, have you heard any stories from Western 
Governors, with specific instances where they were not allowed 
the voices that they felt they should have in policies that 
affected the people in their states?
    Mr. Ogsbury. Chairman Gohmert, members of the committee, I 
would appreciate the opportunity to provide a more thoughtful 
answer for the record. In the meantime, I would suggest that in 
the course of consistency reviews that were issued with respect 
to the sage-grouse RMPs, that there was considerable concern 
expressed by a number of governors that there was not enough 
attention paid to those consistency reviews.
    Mr. Gohmert. Well, I don't know--we got representation from 
the various aspects, stakeholders. What I have heard in my 
district in dealing with Federal land issues is that sometimes 
a plan is being proposed and they don't see word of it; they 
don't feel like they get proper notice, and then all of a 
sudden their time has run out.
    Mr. Fontaine, are you aware of any situations like that, 
where commissioners didn't feel like they had adequate time to 
respond?
    Mr. Fontaine. Mr. Chairman, thank you for the question. I 
think that is the case for many of our counties. We have a 
number of small rural counties that, quite frankly, do not have 
staff. I think we have eight or nine counties in our state that 
do not even have a county manager. So, even if the BLM, for 
example, might submit an email indicating that there might be 
some plan that is being considered, including this planning 
initiative, it is one of many emails that they may get and they 
may not have the opportunity to review that and give some 
thoughtful comment on that plan.
    We think that the better course would be for the BLM to 
reach out to those counties and to our association, as well.
    Mr. Gohmert. You made a great point. My counties where 
Federal land is located normally have less assets to utilize, 
like you are saying. You cannot tax the Federal land, it is not 
being used now where it should be used to produce timber. That 
was the original idea, it is a renewable resource--these are 
not sequoias or pine trees. They are struggling, the schools 
struggle, and they don't have the ability to respond; and I 
appreciate that point being made.
    My time is running out, but I just would ask all of you, 
including Ms. Clarke--you have special experience from all 
sides--if you have specific instances that you can find where 
the rules have worked a hardship, then let us know. Please send 
us those in the days ahead.
    My time has expired, and I recognize the gentleman from 
Idaho, Mr. Labrador, for 5 minutes.
    Mr. Labrador. Thank you, Mr. Chairman. I would like to 
thank the subcommittee for holding this hearing today.
    BLM's draft Planning 2.0 rule, if finalized, will have 
major impacts on states with BLM land. In my state, BLM manages 
approximately 12 million acres of land which will be 
significantly impacted by this rule. Because the impact on 
Idaho will be so significant, I am very concerned that this 
draft rule marginalizes the role that state and local 
governments will play in the BLM planning process, and ignores 
BLM statutory obligation to coordinate with state and local 
governments, and to provide for meaningful public involvement 
of state and local government officials.
    I would like to ask unanimous consent first that a letter 
that Governor Otter sent to the members of Idaho's 
congressional delegation, as well as the state's comments to 
BLM be included in the record.
    Mr. Gohmert. Without objection, so ordered.

    [The information follows:]

                                    State of Idaho,
                                         Governor's Office.

                                                       May 25, 2016

Director Neil Kornze
Bureau of Land Management
U.S. Department of the Interior
1849 C Street NW
Washington, DC 20240

    Director Kornze:

    The State of Idaho appreciates the opportunity to provide comments 
regarding the Bureau of Land Management's (``BLM'') proposal to amend 
the regulations related to the resource management planning process 
(``BLM Planning Rule 2.0''). See 43 CFR Sec. 1600. Please accept the 
following observations and comments.
    BLM manages approximately 12 million acres in Idaho and over 14 
million sub-surface acres. Management decisions on federal lands have a 
significant impact on Idaho's economy and way of life. There are over 
1.3 million Animal Unit Months (``AUMs'') associated with 1,878 grazing 
permits and leases on BLM-managed lands within Idaho. Additionally, 
there are numerous oil and gas leases, mining operations, recreational 
activities, etc. that are located on federally managed land in Idaho. 
The way in which these decisions are made is important, which is why 
Idaho has consistently pushed to be a meaningful partner at every 
opportunity. However, time and again Idaho and its agencies have worked 
hard and in good faith to develop robust, collaborative planning 
documents with their local BLM offices only to have BLM's national 
office in Washington D.C. unilaterally change course at the last 
minute.
    The BLM Planning Rule 2.0 represents another example of the BLM 
failing to engage state and local regulatory partners. This has become 
a pervasive policy for many federal agencies. Federal agencies do not 
appear to view states and their respective agencies as co-managers or 
co-regulators, but instead seeks to aggressively minimize the State's 
role, often ignoring or overruling State plans, policies or priorities. 
If appropriate land management efforts in Idaho are going to achieve 
any level of success, the State and its representative agencies must 
serve a more prominent role in the development and implementation of 
federal programs and their attendant regulations.
    Interestingly, the proposed regulation suggests deleting the term 
``shall'' throughout the entire regulation and replacing it with the 
term ``will.'' The justification is improving the regulation's 
readability. I respectfully disagree with this proposed change. The 
existing terminology does not suffer from readability problems. 
Moreover, the term ``shall'' is a generally recognized legal term of 
art that indicates mandatory or non-discretionary. This is an important 
term that should serve to remind BLM of such important congressional 
mandates as directives to ``use and observe principles of multiple use 
and sustained yield'' and ``coordinate with other federal agencies, 
Indian tribes, and the States and local governments.'' See 43 U.S.C. 
1712(a) sec. 202(c).
Section 1610.4: Planning Assessment
    BLM proposes to establish a new ``Planning Assessment'' step in the 
RMP development process to ``combine and revise existing steps for 
inventory data and information collection and the analysis of the 
management situation.'' This step would take place during the scoping 
process, before the agency begins RMP development. It appears BLM is 
basing the shortened Governor's consistency review, at least in part, 
on the fact that it will provide opportunity for State input during the 
Planning Assessment. Additionally, this section is written in a very 
``passive'' fashion which seems to confer little obligation on the part 
of the BLM to gather appropriate data for its own planning process. We 
believe planning guidance should direct BLM to uphold an ``active'' 
role in soliciting, identifying and gathering relevant scientific 
information about the planning resources. Further, the BLM should be 
required to find and gather both (1) the best scientific data for 
relevant resources pursuant to a quality-controlled process and (2) 
appropriate data from the regulatory agency responsible for managing 
those resources. As now written, the BLM has the option of disregarding 
State management data for a given resource in preference for data from 
an individual or special-interest group, which is extremely concerning.

    The State of Idaho's concern with this new process is two-fold:

    <bullet> This consultation would occur at the scoping stage of RMP 
            development, prior to any actual RMP design; and

    <bullet> Specific opportunities for engagement by states appear 
            limited.

    Section 1610.4(a)(3) states BLM is proposing to add a requirement 
that the responsible BLM official provide opportunities for states and 
other stakeholders to provide data and information, or suggest other 
policies for the agency to consider (i.e., ``a state wildlife agency 
might ask the BLM to consider a conservation plan for a sensitive 
species'').
    States are invited only to submit data and information. This also 
seems imbalanced by placing the onus of information submittal on states 
and other stakeholders while leaving BLM to make a subjective 
determination of whether to consider submitted information. 
Additionally, ``[t]his opportunity would be provided through a general 
request for information from the public.'' States should be treated 
with special solicitude, and not simply as members of the public, as 
BLM proposes.
Section 1610.3-2 Consistency Requirements
    The proposed BLM Planning Rule proposes the following revision: 
``Resource management plans will be consistent with officially approved 
or adopted land use plans of other Federal agencies, State and local 
governments and Indian tribes . . . (emphasis added). (p 118). As a 
foundation for this change, BLM proposes replacing the phrase 
``resource related plans'' with ``land use plans'' and to remove the 
words ``policies, programs, and processes'' from the existing 
definition of officially approved and adopted land use plans (p. 52). 
Improved consistency with section 202(c)(9) of FLPMA is provided as 
rationale for this change.
    This narrows the existing planning context for consistency with 
resource-related plans and policies, programs and processes. Idaho is 
concerned that this will fundamentally preclude Governor consistency 
review consideration of Idaho Department of Fish and Game (``IDFG'') 
species management plans, which provide important context to official 
State and local government land use plans. We believe this flexibility 
is necessary because State and local governments' officially approved 
or adopted land use plans often do not specifically incorporate species 
management population objectives yet IDFG species management plans are 
fundamental to hunting, fishing, trapping and other wildlife-related 
activities as components of outdoor recreation plans and also are 
important state plans that are germane in the development of land use 
plans for public lands (which the Secretary is to assure that 
consideration is given, section 202(c)(9) of FLPMA). We recommend that 
IDFG species management plans remain an acceptable component of the 
governor consistency review process.
    The proposed BLM Planning Rule claims to enhance state and local 
governments' opportunity to participate in the various BLM processes. 
However, a more detailed review of the proposed changes does not 
support that conclusion. In fact, development of the proposed rule 
itself presented a perfect opportunity for the BLM to engage its state 
and local partners in identifying areas of needed improvement, crafting 
a process that takes full advantage of the important perspectives and 
priorities that states can provide, and roll out the proposal to the 
public in lock-step with the states. Instead, the rule was developed--
as has become all too common--by officials in Washington, D.C., only 
engaging state partners in the same process with which it engages the 
general public. This process surely would overlook the important 
priorities or policies of the individual states and further erode the 
principles of federalism that are embedded within our history and 
national charter.

    This process of minimizing state participation is inappropriate 
given the congressional direction codified in BLM's organic statute. 
The Federal Land Policy and Management Act (FLPMA) directs BLM, to 
``establish procedures . . . to give Federal, State, and local 
governments and the public, adequate notice and opportunity to comment 
upon and participate in the formulation of plans and programs relating 
to the management of the public lands.'' See 43 U.S.C. 1712(f). It is 
evident from the language of the statute that Congress perceived the 
role of state and local governments to be separate from and in addition 
to the general public's participation. Congress has stated that land 
use planning should

        consider[ ] the policies of approved State and tribal land 
        resource management programs. In implementing this directive, 
        the Secretary shall, to the extent he finds practical, keep 
        apprised of State, local, and tribal plans that are germane in 
        the development of land use plans for public lands; assist in 
        resolving, to the extent practical, inconsistencies between 
        Federal and non-Federal Government plans, and shall provide for 
        meaningful public involvement of State and local government 
        officials, both elected and appointed, in the development of 
        land use programs, land use regulations, and land use decisions 
        for public lands, including early public notice of proposed 
        decisions which may have a significant impact on non-federal 
        lands.

43 U.S.C. 1712(a) sec. 202 (emphasis added). The congressional mandates 
contained throughout FLPMA with respect to engaging state and local 
governments early and in a meaningful way are not being followed 
adequately, nor are they accurately reflected in the proposed 
regulation. How can the BLM ``keep apprised of State, local, and tribal 
plans'' and provide ``meaningful'' engagement by simply cataloging 
states' comments along with the myriad of other written submissions to 
this rule or other important planning documents?

    The various sections of FLPMA highlighted above provide important, 
non-discretionary direction with respect to stakeholder engagement. The 
proposed regulations must be consistent with these and other 
congressional mandates. Any final regulations should be amended to 
clearly recognize and emphasize the importance of the BLM coordinating 
its efforts with the states, local governments and Indian tribes. These 
governing bodies should have the opportunity to be equal partners in 
promulgating rules and land use plans. Of utmost importance is the need 
for the regulations to recognize the distinction between public comment 
opportunities and coordination with co-regulators and co-managers 
whereby state and local plans, policies and priorities are carefully 
considered and integrated into Resource Management Plans (``RMPs'') and 
other important planning documents. BLM should strive to create 
consistency with state policies, plans and programs at every level of 
RMP development, beginning with meaningful engagement with state and 
local governments.
    Additionally, BLM is considering whether to adjust the timeline or 
appeal process of the Governor's consistency review.\1\ It justifies a 
modification of this important tool for Governors by claiming that this 
proposed rule provides early opportunities to identify the officially 
approved and adopted land use plans of state and local governments, and 
to resolve inconsistencies between those plans and the RMP alternatives 
that BLM would consider.
---------------------------------------------------------------------------
    \1\ Section 1610.3-2(b)(l)(ii)
---------------------------------------------------------------------------
    BLM proposes no tangible early opportunities for participation by 
Governors. As discussed below, BLM is adding a baselining step to the 
RMP amendment process in which it will ask for information from state 
agencies with no assurance that BLM will seek consistency. If BLM 
chooses to adjust the timing for consistency reviews, it must not 
shorten the timeframe and in fact should consider granting states more 
time to make a consistency determination.
Section 1601.0-4: Responsibilities
    The proposed regulations attempt to shift certain decision-making 
authority from BLM state directors to the BLM director. This proposed 
change should be deleted. Empowering state directors to develop local 
solutions by engaging state and local co-regulators and co-managers is 
an important investment in the collaborative and coordinated model that 
is far superior to the centralized, top-down approach that is proposed. 
Federal agency personnel stationed in Washington, D.C. will never fully 
understand the unique socio-economic, cultural and conservation needs 
unique to the individual states. The attempt to codify the practice of 
top-down, one-size-fits-all decision making is misguided. This 
undermines collaborative local solutions and deflates enthusiasm for 
conservation initiatives. State and local leaders are closely connected 
to the citizens who are affected most by the regulatory framework 
contained throughout the proposed regulations. A more meaningful 
engagement with state and local governments improves the regulated 
community's opportunity to interact with its government on all levels 
and provides a perspective that is otherwise missed. BLM offices don't 
understand the issues in Idaho and across the West. BLM should maintain 
the status quo which allows the Idaho State Director to make the 
decisions that affect Idaho.
Section 1610.2: Public Involvement
    BLM proposes to shorten the comment period for draft RMPs from 90 
days to 60 days and reduce the comment period for draft environmental 
impact statement (EIS)-level plan amendments from 90 days to 45 days. 
BLM justifies these changes in order to streamline its process, and 
that longer periods will be unnecessary because new and amended RMPs 
will take consistent approaches in the coming years.
    These timeline reductions eviscerate the important role the public 
plays in land-use planning and government accountability. Many Idaho 
citizens who are directly impacted by BLM management decisions strongly 
desire to participate in and comment on all the BLM's land management 
planning. Recently, nearly all RMP- and EIS-level plan amendments 
consist of multiple volumes and thousands of pages. While BLM reserves 
the right to take as much time as it needs to create these documents, 
reducing the amount of time that the public has to review them all but 
ensures that these important parties to the process cannot provide 
meaningful input.
    BLM indicates that the reduction in review time is justified 
because of increased state/federal coordination early in the planning 
process. However, history shows us that early coordination between the 
state and BLM is ineffective because very little is required of BLM and 
other federal management agencies to meet their FLPMA ``coordination'' 
responsibilities. Both the sage-grouse process and the Gateway West 
Supplemental EIS are recent examples of how BLM believed it had met its 
``coordination'' duties by giving Idaho advanced notice of plan 
changes. This is not enough. Increased early state/federal coordination 
should mean that states have the opportunity to be true partners in the 
planning process.
    BLM should maintain and consider extending comment periods to 
ensure that Idaho and other states and interested parties have adequate 
opportunity to review and comment on RMP amendments and EIS level plan 
amendments.
Mitigation
    Idaho agrees with the construction and citation of a ``Mitigation 
Hierarchy'' as proposed in the proposed rule. Without referring 
directly to ``preamble for proposed section 1610.1-2(a)(2)'', we 
recommend a clearer statement that the hierarchy considers avoidance 
preferable to minimization, which in turn is preferable to 
compensation. Please clearly spell out that the sequence as stated is 
in order of preference.
Agency Communication Protocol
    BLM proposes to eliminate the requirement to publish notices 
related to RMP development, including NEPA analyses, on the Federal 
Register. Rather, the agency would publish these actions on the BLM Web 
site and at BLM offices within the planning area of a given RMP. 
Similarly, BLM proposes to eliminate the current requirement to publish 
Federal Register notices at the start of every planning effort and to 
remove the requirement that BLM publish a Notice of Intent (NOI) to 
prepare an environmental assessment as part of an RMP amendment, but 
would retain the requirement to publish a NOI for an EIS related to an 
RMP amendment.
    Federal Register notices ensures that RMP amendments and other NEPA 
analyses are consistently communicated with interested parties, and 
ensures that all parties are kept apprised of changes or new 
developments. BLM should continue publishing notices in the Federal 
Register while adding publication on the BLM Web site and at BLM 
offices within the planning area of a given RMP in order to ensure that 
interested parties are notified of BLM's actions.
Conclusion
    It is my opinion that the proposed rule cannot be fixed simply by 
line-item edits. As I stated before, officials in Washington, D.C. will 
never fully understand the unique socio-economic, cultural and 
conservation needs of the individual states. State consultations should 
have occurred prior to the publication of this proposed rule. After 
much discussion with Idaho's State agencies, I request that the 
proposal be discarded and a new proposal drafted with the BLM 
appropriately engaging the states. Throughout the consultation process, 
I would remind the BLM that state agencies are not merely stakeholders, 
but rather are the BLM's partners, especially when implementing 
important land management actions. Idaho has a wealth of data, 
experience and expertise from which the BLM could benefit in developing 
a much more collaborative, robust and effective planning rule.

            As Always--Idaho, ``Esto Perpetua'',

                                      C.L. ``Butch'' Otter,
                                                 Governor of Idaho.

                                 ______
                                 

                                    State of Idaho,
                                         Governor's Office.

                                                       July 1, 2016

Hon. Mike Crapo
Hon. James E. Risch
United States Senate
Washington, DC 20510

Hon. Mike Simpson
Hon. Raul Labrador
United States Congress
Washington, DC 20515

    Dear Idaho Delegation:

    I recently submitted the attached comments on the Bureau of Land 
Management's (BLM) proposal to amend the resource management planning 
process (Planning 2.0) regulations. If instituted, Planning 2.0 will 
significantly limit opportunities for Idaho, local stakeholders, and 
the public to engage in collaborative land management planning.
    As you know, the Senate Energy and Natural Resources Subcommittee 
recently held a hearing to conduct oversight on the Planning 2.0 
initiative. Likewise, the House Committee on Natural Resources held a 
similar hearing in the Subcommittee on Oversight and Investigations to 
examine the local perspectives on Planning 2.0 in May. The testimony at 
these hearings showed a general displeasure across the West on the 
contents of the proposed initiative, and I wanted to take this 
opportunity to share my thoughts on the rule.
    I have very clear expectations regarding how federal agencies 
should interact with the State while developing regulatory programs 
that impact Idaho. Federal land management agencies must respect Idaho 
as a sovereign and full partner. Planning 2.0 is no exception. However, 
the BLM failed to engage Idaho in early and meaningful consultation 
while drafting Planning 2.0. The BLM could not follow the very 
principles it purports to endorse in Planning 2.0 while drafting the 
rule itself. Planning 2.0 includes a number of provisions that weaken 
the value and impact of Governors' Consistency Reviews in the RMP 
development process, and leaves states with an undefined role in the 
planning process.
    Planning 2.0, as drafted, presents serious challenges and contains 
significant shortcomings. I urge you to support any effort to delay the 
implementation of Planning 2.0 until BLM appropriately engages Idaho, 
and addresses the serious issues that I provided in my comments. Please 
feel free to contact me if you have any questions or would like 
clarification on my comments.

            As Always--Idaho, ``Esto Perpetua'',

                                      C.L. ``Butch'' Otter,
                                                 Governor of Idaho.

                                 ______
                                 

    Mr. Labrador. Thank you.
    Mr. Ogsbury, thank you for being here today. As I 
mentioned, the Federal Land Policy and Management Act requires 
that the BLM coordinate the land use inventory planning and 
management activities with state and local governments, and 
provide for meaningful public involvement of state and local 
government officials. That is what the law says.
    Do Western Governors believe that BLM's current planning 
regulations comply with these requirements?
    Mr. Ogsbury. Chairman Gohmert, Representative Labrador, we 
believe that Planning 2.0 steps away from that requirement.
    Mr. Labrador. In what ways?
    Mr. Ogsbury. Governors under FLPMA are, as you pointed out, 
given a very substantial role with respect to the BLM planning 
process when, for example, the scope of consistency reviews are 
narrowed from having RMPs be consistent with plans, programs, 
policies, and processes to simply being consistent with 
officially adoptive land use plans; that is a step away from 
gubernatorial influence.
    When 2.0 says that governors' views will be considered, 
simply considered, that is a step away from saying governors' 
recommendations submitted as part of a consistency review will 
be adopted if it represents a good balance between national and 
state interests.
    Mr. Labrador. So, trying to change the law through 
regulation, in essence. This draft rule appears to shift 
planning away from local communities to BLM headquarters here 
in Washington, DC. This, to me, is very problematic for several 
reasons.
    Idaho's comments to BLM state that, ``Idaho and its 
agencies have worked hard and in good faith to develop robust, 
collaborative planning documents with their BLM offices, only 
to have BLM's national office in Washington, DC unilaterally 
change course at the last minute.''
    Mr. Fontaine, have counties in Nevada had similar 
experiences to those that Idaho has had when planning documents 
go to BLM headquarters?
    Mr. Fontaine. Thank you for the question. I cannot think of 
a specific example today, but, generally speaking, we have a 
good working relationship with our local BLM officials, and 
strive to come up with plans and agreements on how those should 
be implemented and administered. Once they do leave the state 
and go to Washington, DC, it is really, quite frankly, beyond 
our control; and the last thing that we want to have happen is 
for our county officials to have to go back and try to rectify 
something that may have been changed that was not agreed to at 
the county and state level.
    Mr. Labrador. I think you are making an important point. I 
think most of us have pretty good relationships with our local 
officials. It is when it comes here to DC that things seem to 
shift most of the time.
    Under this proposal, do you think Nevada counties have a 
seat at the table when BLM engages in the planning?
    Mr. Fontaine. Under this proposal, I believe that we still 
have a seat at the table. But again, I think our concern is 
that that seat and our voice might be part of a much larger 
group of stakeholders, and somehow backs away and diminishes 
the elevated role that county governments and local governments 
have in the process.
    Mr. Labrador. Thank you.
    Ms. Clarke, thank you for being here today. Will this 
proposal strengthen the relationships that states and local 
governments have spent years developing with local BLM 
officials?
    Ms. Clarke. Thank you for the question. I believe 
absolutely not. I think it will go the opposite direction. 
Those relationships in the state are robust, but it is very 
disappointing when we sit and come to terms with one of our BLM 
counterparts and they say, ``OK, now I have to go back to 
Washington and see if I can get this validated.'' And very 
often they cannot. They come back with a counter-proposal.
    I think this will just make that problem more prevalent.
    Mr. Labrador. Thank you very much. I yield back my time.
    Mr. Gohmert. Thank you. At this time, the Chair recognizes 
the Arkansas razorback gentleman, Mr. Westerman, for 5 minutes.
    Mr. Westerman. Thank you, Mr. Chairman. I thank the 
witnesses for being here today. One of the most significant 
changes under Planning 2.0 would be moving to the 
implementation of a landscape-level management of resources. I 
don't want to knock the landscape-level process, because it is 
used by large private landowners and you can look at individual 
management of stands and then the conglomeration into the 
landscape. So, the science of that I don't necessarily disagree 
with, but we have to make sure that the process is still 
followed and that you still have the state and local-level 
input into that process, so that all the views are being 
represented and that we are not shifting power away from the 
local communities.
    Mr. Fontaine, are you concerned that this change will 
centralize management planning in DC, rather than at the state 
and local level? Do you feel like state and local authorities 
will still have a role in this?
    Mr. Fontaine. Congressman, thank you for the question. We 
are very concerned about how this might affect our local 
communities. We have a number of rural counties that contain 
small communities.
    I will give you an example. Esmeralda County is one. It is 
a neighboring county to Clark County, our most populous county, 
with over 2 million people, completely different in terms of 
their interests and the impacts of BLM lands on their county. 
But Esmeralda County has 897 people. If somehow that county is 
included in a larger landscape-level planning initiative, we 
are very concerned about how the impacts to that local 
community in that county would be dwarfed by the larger 
economic analysis and impact analysis for landscape-level 
planning effort.
    So, yes, we are very concerned. We have, again, a number of 
counties that would potentially be affected that way.
    Mr. Westerman. Do you believe the current system benefits 
states by allowing for closer relationships with Federal 
officials in the state and field offices?
    Mr. Fontaine. Again, thank you for the question, 
Congressman. Yes, we do. We have close relationships with our 
state office. We have district offices throughout our state, as 
well. And I know that, while there may be differences between 
counties and the BLM officials at the local level from time to 
time, we encourage our member counties, as does the BLM 
encourage, I believe, their staff and management across the 
state, to work closely together to try to address those issues 
at the local level. We think that is very important, those 
relationships are absolutely critical.
    Mr. Westerman. But do you think if the decision process is 
moved to DC or a more centralized process, do you think that 
would give outside groups, who may not have a local interest in 
the landscape, undue influence?
    Mr. Fontaine. I certainly believe that opens the door to 
that possibility, very much so.
    Mr. Westerman. I would like to ask Mr. Ogsbury and Ms. 
Clarke your thoughts on the BLM shift to landscape-level 
management.
    Ms. Clarke. Thank you, I appreciate that opportunity. As I 
said, I have worked with many agencies, Federal and state, 
regarding land use planning and plans. It was delightful when I 
served at BLM to very often be out with local folks, sometimes 
elected officials, and to be told that BLM was a superb partner 
and asked, ``What would it take to get the Forest Service to 
function the way the BLM did? ''
    I think you automatically see the difference. They have 
landscape-scale designs around those forests. They do not have 
any kind of geographic boundaries that align with political 
boundaries. While that is convenient for them and good for the 
forest, they are not the greatest of partners. I used to have 
my counterpart, Chief of the Forest Service, say this, ``It is 
great to partner with the BLM, because they are open-armed.'' 
But he says, ``If you want to partner with the Forest Service, 
you have really got to want to partner, because we will not 
make it easy.''
    Mr. Ogsbury. Chairman Gohmert, Congressman Westerman, 
members of the committee, WGA does not have a specific policy 
on the movement toward landscape planning. But as you so 
articulately observed, whatever process is pursued, it is 
critical to preserve the special role of governors and the 
substantive role in the BLM planning process.
    Mr. Westerman. I am almost out of time, Mr. Chairman. I 
will yield back and hang around.
    Mr. Gohmert. Thank you. We will have a second round, and I 
will now recognize Chairman Bishop for 5 minutes.
    The Chairman. Thank you again.
    Mr. Lyons, I have a couple of questions for you, one in 
response to your testimony to Chairman Gohmert just a second 
ago, that you were thinking of making comment periods in BLM 
2.0 longer. So I guess the question is why, then, do you refuse 
to extend the comment periods about BLM 2.0 more than 30 days, 
even though you had requests from numerous special interest 
groups to do so?
    Mr. Lyons. Thank you for that question, Mr. Chairman. We 
have gone through an extensive process in developing the rule 
and in seeking input from various sources. We have held 
workshops, we have held webinars, we have had a 60-day comment 
period, which was extended another 30 days. We do not want the 
process of preparing the planning rules to last as long as it 
takes today to prepare a plan.
    The Chairman. Even though you have had repeated requests 
for extended comment periods?
    Mr. Lyons. We will continue to accept input from those who 
want to provide that input. In fact, we continue to look at 
that input and will factor that into the completion of the 
final rule.
    The Chairman. I guess it comes back again to, it is not 
where the input is coming from, but who is actually making the 
decisions on this input, which is one of the other questions 
that we have coming up here.
    Let me ask you one other question, as well. Are you aware 
of any instances, including the management of national 
monuments, where BLM is currently using Planning 2.0 procedures 
or where BLM has told communities that the Planning 2.0 
procedures would be used, regardless of whether or not they had 
been finalized?
    Mr. Lyons. Mr. Chairman, we have pilot-tested the 
application of Planning 2.0 principles. In particular, I would 
offer work that was done in western Montana, in and around the 
communities of Missoula. And the response was quite positive. 
In fact, if I may----
    The Chairman. No, just answer the question. Have you done 
it?
    Mr. Lyons. We have pilot-tested this in a number of places, 
and it has been a very positive response.
    The Chairman. Have you told communities that you would use 
2.0 regardless of whether they have been finalized or not?
    Mr. Lyons. We did not use 2.0, we applied the principles 
and concepts as we are developing this to try to do what I 
think any prudent organization would do. We are testing the 
approach----
    The Chairman. OK, come on, in English. The answer is yes, 
then?
    Mr. Lyons. No.
    The Chairman. The answer is no. So you have not 
implemented----
    Mr. Lyons. No, we have not implemented Planning 2.0 yet. It 
is not the rule----
    The Chairman. Except even though you said you have already 
pilot-tested----
    Mr. Lyons. We have pilot-tested elements of it. Yes, sir.
    The Chairman. And there has not been a situation in which 
you told communities you are going to be using this whether it 
is finalized or not?
    Mr. Lyons. No, sir. We have not completed the rule.
    The Chairman. OK. Then I hope some of the input we are 
having has been inaccurate.
    Let me go back to that ``deciding official'' concept again. 
Mr. Fontaine, let me ask you the same thing I asked Mr. Ogsbury 
earlier on. Is it ever appropriate to have that defining 
official be somebody who lives outside the jurisdiction of 
either a county or a state, if the entire plan is within the 
jurisdiction of that county or state?
    Mr. Fontaine. Chairman Bishop, thank you for the question. 
I don't understand how you can have a deciding official make a 
decision about a place where they don't have knowledge, haven't 
resided, haven't spent time with the community, or haven't 
worked with that community to understand what the needs are in 
that----
    The Chairman. You have never seen the administrative state 
in action, then.
    Ms. Clarke, let me come back to you on that. Do you have 
any concerns on how BLM will select these deciding officials 
under this new plan?
    Ms. Clarke. I have grave concerns about it, because I do 
not think there is anything I have seen in the rule that limits 
who that might be. And I do not see anything that says it needs 
to be someone local, someone who understands the culture.
    But, there has been discussion here about ``we are not 
going to diminish the role of the cooperators.'' Yet, I think 
it will fundamentally be diminished if, after you have talked 
and worked with them, they pull in someone to decide who has 
never been party to those conversations. So, it is another way 
to really diminish the input of state and local governments.
    The Chairman. Let me go back to another one, then. States 
do have primacy over allocation and administration of water 
resources within state borders. So, Mr. Lyons, the BLM 
proposals here indicate the agency may add provisions to its 
RMPs to increase agency involvement in water management. 
Specifically, what aspects of water management allocation would 
BLM incorporate into the future in new or amended RMPs?
    Mr. Lyons. Mr. Chairman, I am actually not aware of that, 
so I am going to have to do a little homework and try to 
understand where that impression has come from.
    The Chairman. Well, good. If we gave you an extended 
comment period, maybe you could answer that.
    Mr. Lyons. Thank you, sir.
    The Chairman. I see a yellow light over there. Let me yield 
back and see how many other people have something else to go 
with.
    Mr. Gohmert. Thank you. The Chair yields back. I am 
struggling here. Given the significant impact that this rule is 
going to have on the 12 western states where the Federal 
Government, the BLM, owns so much of that land, and given the 
disproportionate impact that this rule 2.0 is going to have on 
these 12 states, why did the BLM choose not to travel to those 
states and have field hearings and hear directly from the 
people most affected?
    And, as Mr. Fontaine points out, some of these counties, 
because there is so much Federal land in their county, do not 
have the resources to come to Washington to lobby like other 
special interest groups do. Why was there not even a trip to 
the sites that are going to be so materially affected before 
this was put out as the rule?
    Mr. Lyons?
    Mr. Lyons. Yes, Mr. Chairman. I would say this. We have 
done outreach, as I said before. We have sought input. We have 
gotten over 6,000 comments on the rule, which I am glad to 
provide for the record, if you like. Our intent is not to have 
to have people come to Washington. Our goal is to engage with 
people on the ground. That is the way the plans would be 
implemented. It is no different than the way things occur now 
with regard to cooperators.
    Mr. Gohmert. That is what we are worried about.
    Mr. Lyons. I would emphasize that we have worked through 
our resource advisory committees--and again, I can provide this 
information for the record--who are locally representative, to 
secure additional input and feedback on the rules, as well. We 
are trying to engage at that level, and to engage as well on a 
regional level to secure information that will help us improve 
the rule.
    This conversation is interesting and helpful in helping us 
to decide how we are going to finalize the rule. As I indicated 
to the Chairman, we are not done yet, and we certainly 
appreciate the feedback.
    Mr. Gohmert. Well, what about extending the rule, or 
extending the comment period for the rule itself? Since you and 
Director Kornze talked and you think it would be a good idea to 
extend it within the rule, how about extending the comment 
period for the rule?
    Mr. Lyons. Frankly, Mr. Chairman, I think this is a 
conversation to be had with the Director, but I would suggest 
that we have done our utmost over the period of time that we 
have been working on this rule to try to secure additional 
input, and now it is time to finalize a rule based on all the 
input we received and then apply it.
    Mr. Gohmert. You are hearing from people who represent 
areas in the West. You are hearing from others saying, ``Give 
us more time.'' We invited Director Kornze, and they sent you 
to answer for him. That is why you are being asked the 
question. You are answering for the Director, you are the one 
they sent. So, I would appreciate it if you would not pawn it 
off on the Director when he sent you to answer.
    It sounds like you are saying, ``We are not extending the 
comment period. We have our little bevy of folks around here in 
Washington; we haven't been to those areas. We are going to 
materially impact them, and we don't care. We have our plan, 
and we may extend the comment period within the plan for other 
rules, but the big killer plan, we are going to leave it right 
where it is. We are satisfied with our little crew right here 
in Washington.'' That is the impression you are giving. Then, 
when you throw it back to Director Kornze, when he sent you to 
testify on his behalf, it gives me a lot of concern.
    Mr. Ogsbury, aren't the Western Governors pleading for more 
comment period before 2.0 is put in as a finalized rule?
    Mr. Ogsbury. Chairman Gohmert and members of the committee, 
the Western Governors are pleading for BLM to take a step back 
and take their concerns into account.
    Mr. Gohmert. Let me just say this, since my time is running 
out. It looks like we are heading to a CR or an omnibus, and 
the Republican leaders come to people like me and they say, 
``Look, we need you and we need other conservatives like you. 
What will it take? '' And I tell you what. We are about to get 
to the point where it is going to take gutting BLM's leadership 
until we get people who will be responsive to the people that 
they are gutting. That may be what I need to support, the CR or 
omnibus, if we do not get more responsiveness out of BLM.
    At this time, the Chair recognizes Mr. Labrador for 5 
minutes.
    Mr. Labrador. Thank you, Mr. Chairman.
    Ms. Clarke, just to follow up on the questions I was asking 
you--do you think that the shift to multi-state landscape 
management benefit the actual landscapes?
    Ms. Clarke. Not necessarily, because I believe that the 
best stewardship of the land comes when there is a partnership 
that empowers local people to be engaged, and that has 
solicited their commitment to the plan. If they are a part of 
it, I think they will honor it; and they will do their utmost 
to take care of the land.
    The land is often where they live, where they play, and, 
for many, where they make a living. I think they will be good 
stewards. I think if you go to landscape level you lose that 
very personal touch. Unlike the Forest Service, that can draw a 
circle around their land, the BLM land is so fragmented that 
BLM has to partner with its neighbors. This is not going to 
lead to good partnership.
    Mr. Labrador. Thank you. Do you think there is any 
statutory authority for this change?
    Ms. Clarke. No, I do not. I think this is moving beyond the 
statute, and kind of ignoring the statute.
    Mr. Labrador. OK. Mr. Lyons, you state that the proposed 
rule is intended to ``improve opportunities for state and local 
government, stakeholders, and the public to better provide 
input to plans from the outset.'' Based on the comments from 
the witnesses here today, and the comments submitted to BLM by 
the state of Idaho, it appears that the proposal fails to meet 
that goal.
    Based on the fact that state and local elected officials 
from all over the country are commenting on the rule and 
expressing concerns that their ability to participate in the 
planning process with BLM will be reduced, does BLM still 
contend that the draft rule satisfies the requirements of 
FLPMA?
    Mr. Lyons. I am confident, Congressman, that the proposed 
rule is consistent with FLPMA and our authorities. My takeaway 
is we have a lot of work to do to help correct some 
misperceptions and misunderstanding of the rule, and----
    Mr. Labrador. You are smarter than all the governors and 
all the county commissioners. You just need to convince them of 
your brightness.
    Mr. Lyons. No.
    Mr. Labrador. Is that what you are telling us?
    Mr. Lyons. No, no. What I am saying, Congressman, is that 
we have work to do to consider all the input that was provided 
today and has been provided throughout this period, and to see, 
to what extent we can address those concerns, but I am 
confident----
    Mr. Labrador. You have the Western Governors' Association, 
all the western governors, telling you that it does not comply 
with FLPMA. Their concern about their inability to be able to 
participate in the process--that you are actually taking their 
ability away that FLPMA clearly provides. It is not like we are 
making it here out of whole cloth. We are not just inventing it 
from the dais. We are actually reading the statute that says 
that they have to have significant impact and significant 
input.
    Mr. Lyons. Well, I would suggest, Congressman, that 
everyone is rendering opinions, including myself. I am not an 
attorney. I will let our solicitor's office confirm that, if 
that is helpful.
    Mr. Labrador. No, it is not helpful. The state of Idaho has 
requested that BLM discard the proposed rule and that a new 
proposal be drafted with the BLM appropriately engaging the 
states. Has BLM received similar requests from other states?
    Mr. Lyons. We have heard from a number of states who are 
concerned about the rule. Yes, sir.
    Mr. Labrador. And have they specifically made that request 
to just start the process over?
    Mr. Lyons. I would have to check on the specifics, 
Congressman.
    Mr. Labrador. Do you know, Mr. Ogsbury, if other states 
have made the same request?
    Mr. Ogsbury. I believe the state of Wyoming has asked for a 
withdrawal of the rule. The state of Utah has asked for a 
withdrawal of the rule, as well.
    Mr. Labrador. But Washington knows better, right?
    Mr. Lyons, does BLM plan to comply with these requests, or 
is the agency committed to finalize the draft rule?
    Mr. Lyons. I think we are going to do everything we can, 
Congressman, to address the concerns that have been raised, and 
attempt to complete the rule.
    Mr. Labrador. Mr. Lyons, is BLM using these proposed 
regulations in the development of the management plan for 
Oregon National Monument?
    Mr. Lyons. I am not aware of that. I can't answer that, 
sir.
    Mr. Labrador. OK. So, your testimony today is that you are 
going to take these comments back, but you are going to do 
nothing with it, because you are going to continue with the 
proposed rule; correct?
    Mr. Lyons. That is not what I said, sir.
    Mr. Labrador. I want to be clear. Are you willing to start 
all over with this rule?
    Mr. Lyons. No. What I said was, we are willing to listen as 
we have, and will continue to do. We are going to listen to the 
comments that have been provided----
    Mr. Labrador. And what are you going to do with those 
comments?
    Mr. Lyons. Attempt to address the issues to the best of our 
ability in attempting to finalize the rule.
    Mr. Labrador. So, you are going to attempt to educate us on 
the wisdom of Washington, DC, because you are not going to do 
anything to change the proposed rule. I am asking a serious 
question. Are you going to do anything to change the proposed 
rule?
    Mr. Lyons. I think we are in the process of working that 
through right now, sir.
    Mr. Labrador. All right. Thank you very much.
    Mr. Gohmert. The gentleman from Arkansas is recognized for 
5 minutes.
    Mr. Westerman.
    Mr. Westerman. Thank you again, Mr. Chairman. Mr. Lyons, 
welcome to the committee. In full disclosure to the committee, 
the last time I think Jim and I were in the same room, he was a 
visiting professor at Yale when I was taking a policy class; so 
I am glad you gave me a good grade in the class.
    Mr. Lyons. Where did I go wrong?
    Mr. Westerman. I remember from that class one of the 
discussions we had was in resource management, that government 
is more effective when it was closest to the people. That was a 
topic we discussed quite a bit. I still believe that is true 
and hold true to that. I am very concerned about when we enact 
policy that moves government or moves decisions further away 
from the people.
    I am also concerned that when we are looking at resources, 
we get the policy and the science on the same page. As I said 
earlier, the science behind landscape management is not all 
bad, you get some benefits from things like landscape-wide 
stewardship contracting, or areas to maximize the use of the 
resource much better.
    But I am really concerned if we do not do this correctly, 
then we will be taking the decision away from the people who 
are most affected by the decision; and the decisions will be 
based more on politics, rather than science. And in the end, 
the American public loses because our resources are not managed 
well.
    Could you just elaborate a little bit on how we can be 
assured that this rule will still keep decisions local, that 
there will be collaborative efforts, and that those that are 
most affected by these management decisions will have, not only 
a seat at the table, but the front seat at the table.
    Mr. Lyons. Thank you, Congressman. I appreciate the 
opportunity, and I am proud to see one of my students, at 
least, has been successful.
    What I would say is that I agree completely that local 
input is essential to making sound resource management 
decisions. You have heard me say that before. I think, 
unfortunately, the way in which this rule has been 
characterized misrepresents, at least from my perspective--and 
I realize there are different perspectives in the room--how 
this would work.
    The goal here is to provide additional opportunities for 
input up front. That is what the assessment process is about, 
so everyone has the same basic information going into the 
planning process.
    We would require, before plan alternatives are developed, 
that there be a discussion with all the local interests, all 
interests, including locally elected officials and cooperators, 
about the construction of those alternatives; and the 
responsible official who is developing the plan has an 
obligation to explain why those alternatives fit with the 
resource conditions and the baseline information provided. I 
think that helps improve local collaboration, coordination, and 
should produce a better product.
    What was indicated in the pilot we did in Missoula was that 
that was, in fact, the case. In fact, many of the issues that 
probably would have been exposed much later in the process 
surfaced early, and discussions began among various parties 
toward resolving those issues, and they were pleased with the 
outcome.
    We are trying to find ways to expedite a process that 
should be driven by local interests and local concerns, 
recognizing that these are public lands and every American may 
have an interest in these lands. But local interest, locally 
elected officials, cooperators, have a unique role to play. 
FLPMA acknowledges that, and that is why they have a seat at 
the table. Or, put another way, that is why they are in the 
tent. They are a part of the process from start to finish, and 
that would continue under this proposed rule. That would not 
change.
    So, I think the perception that this drives all decisions 
back to Washington is a gross misunderstanding of what the rule 
intends to achieve. It is, in fact, intended to capitalize on 
lessons learned over a long period of time in planning to 
respond to what we heard from local interests and from our own 
planners, who said we have to change the process.
    In fact, in part it reflects a conversation that Director 
Kornze relayed to us as we began this process. In one of his 
first meetings, he met with Governor Herbert and Secretary 
Jewell. One of the requests that Governor Herbert made was, 
``Can you please fix this process? It just takes too long, and 
by the time you are done it is irrelevant.'' And this is what 
we are seeking to do in the changes we have made in this 
proposed rule.
    Mr. Westerman. I yield back.
    Mr. Gohmert. All right, thank you. I thank the witnesses 
for their testimony. Thank you for being here.
    Members of the committee may have some additional 
questions. Under Committee Rule 4(h), they may have some 
written questions to submit, in which case the record will be 
held open for 10 additional days. The witnesses agree to 
respond in the event there are questions--Ms. Clarke, Mr. 
Lyons, Mr. McAfee, Mr. Fontaine, and Mr. Ogsbury.
    All right, thank you, everyone. For the record, we have 
comments from the Nevada Association of Counties dated May 25, 
2016, and from the National Association of Counties, a letter 
dated June 21, 2016. Without objection, those will be submitted 
as part of the record, as well.
    If there is no further business--hearing none, without 
objection, the committee stands adjourned.

    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]


 1.   Letter dated June 22, 2016 addressed to Neil Kornze, 
            Director of the Bureau of Land Management, from 
            Ryan Sundberg, 5th District Supervisor of Humbolt 
            County, Eureka, California, expressing support for 
            BLM Planning Rule 2.0.

 2.   Letter dated June 22, 2016 addressed to Neil Kornze, 
            Director of the Bureau of Land Management, from 
            Mark Lovelace, 3rd District Supervisor of Humbolt 
            County, Eureka, California, expressing support for 
            BLM Planning Rule 2.0.

 3.   Letter addressed to Neil Kornze, Director of the Bureau 
            of Land Management, from the Lewis & Clark County 
            Board of Commissioners located in Montana, 
            expressing support for BLM Planning Rule 2.0.

 4.   Letter dated May 23, 2016 addressed to Neil Kornze, 
            Director of the Bureau of Land Management, from the 
            Missoula County Board of Commissioners located in 
            Montana, expressing support for BLM Planning Rule 
            2.0.

 5.   Letter dated May 12, 2016 addressed to Neil Kornze, 
            Director of the Bureau of Land Management, from the 
            Park County Board of Commissioners located in 
            Colorado, expressing support for BLM Planning Rule 
            2.0.

 6.   Letter dated June 21, 2016 addressed to Chairman Gohmert 
            and Ranking Member Dingell from the National 
            Association of Counties, providing comment on BLM 
            Planning Rule 2.0.

 7.   Testimony submitted by Public Land Solutions in response 
            to the oversight hearing dated July 13, 2016.

 8.   Testimony submitted by farmers of the Marcus Valley in 
            southwestern Colorado in response to the oversight 
            hearing dated July 13, 2016.

 9.   Letter dated May 25, 2016 addressed to Neil Kornze, 
            Director of the Bureau of Land Management, from 
            Director Clarke, providing comment on BLM Planning 
            Rule 2.0.

10.   Letter dated May 25, 2016 addressed to Neil Kornze, 
            Director of the Bureau of Land Management, from the 
            Nevada Association of Counties, providing comment 
            on BLM Planning Rule 2.0.

                                 [all]
</pre></body></html>
